<html>
<title> - THE ROLE OF EDUCATION IN GLOBAL COMPETITIVENESS</title>
<body><pre>[Senate Hearing 109-289]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-289
 
            THE ROLE OF EDUCATION IN GLOBAL COMPETITIVENESS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE ROLE OF EDUCATION IN GLOBAL COMPETITIVENESS, FOCUSING ON 
   THE KNOWLEDGE OF MATH AND SCIENCE, AND THE RESPECTIVE HIGH SCHOOL 
           REFORM AND NATIONAL SECURITY LANGUAGE INITIATIVES

                               __________

                            FEBRUARY 9, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



                    U.S. GOVERNMENT PRINTING OFFICE
26-056                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  5MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                       THURSDAY, FEBRUARY 9, 2006

                                                                   Page
Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, opening statement...............................     3
    Prepared statement...........................................     4
Spellings, Hon. Margaret, Secretary, U.S. Department of Education     6
    Prepared statement...........................................    32

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Ensign...............................................    39
    Senator Dodd.................................................    40
    Senator Murray...............................................    42
    Response to questions of Senator Enzi by Secretary Spellings.    44
    Response to questions of Senator Ensign by Secretary 
      Spellings..................................................    49
    Response to questions of Senator Hatch by Secretary Spellings    51
    Response to questions of Senator Sessions by Secretary 
      Spellings..................................................    52
    Questions of Senator Murray to Secretary Spellings...........    55
  


            THE ROLE OF EDUCATION IN GLOBAL COMPETITIVENESS

                              ----------                              


                       THURSDAY, FEBRUARY 9, 2006

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
Room SD-106, Dirksen Senate Office Building, Hon. Mike Enzi, 
chairman of the committee, presiding.
    Present: Senators Enzi, Gregg, Alexander, Burr, Isakson, 
Sessions, Kennedy, Bingaman, Murray, Reed and Clinton.

                   Opening Statement of Senator Enzi

    The Chairman. I will call to order the hearing on The Role 
of Education in Global Competitiveness.
    It is my pleasure today to welcome the Secretary of 
Education, Margaret Spellings, to discuss the President's 
recently announced Global Competitiveness Initiative, and other 
administration education priorities that will be the 
cornerstone of the national strategy to address these 
challenges of a global economy.
    We do have the unique opportunity to strengthen and focus 
our education training to ensure that as individuals, and as a 
Nation, we have the knowledge and skills that we need. We must 
ensure that America's students are the best in the world, that 
they speak the language of success, and that as a country we 
get more than a passing grade.
    In April of 2005, Secretary Spellings appeared before this 
committee and testified with Elaine Chao, the Secretary of 
Labor, and it was on this same topic, the topic of global 
competitiveness. At that hearing, the committee's goal was to 
find out how we can provide our children with an education 
today for tomorrow's jobs.
    In addition, we held a roundtable on higher education with 
college presidents and corporate executives, where they cited a 
need for a well-educated and skilled workforce. Without an 
educated workforce we are certain to lose our preeminence in 
the world to developing nations that are quickly growing and 
innovating at a much faster rate than we are. If our students 
and workers are to have the best chance to succeed in life, we 
need to focus all of our Federal education and training 
programs from pre-kindergarten through postsecondary education 
to on-the-job training and continuing education. To be 
competitive in a global economy we must ensure coordination and 
accountability in our education and workforce programs across 
all agencies, departments and levels of Government. To stay in 
the competitiveness race, and to win it, we must ensure that 
school is never out and learning is never over.
    In reading ``The Jobs Revolution,'' I was particularly 
drawn to a passage about knowledge and job skills. Knowledge, 
it began, is being outdated at rates that are still escalating. 
Even knowledge that is current when students graduate is soon 
outdated. While the number of new careers is increasing, the 
life span of applicable knowledge is decreasing. Two-thirds of 
the 7-million worker gap in 2010 will be a skilled worker 
shortage. That's unacceptable. Today, tomorrow and for the 
foreseeable future, knowledge is king, especially knowledge 
obtained and updated on a regular basis through a lifetime of 
learning and a constant upgrading of skills of our workforce. 
College degrees do not have the shelf life they once did.
    In 2004, China graduated about 500,000 engineers, India 
graduated 200,000. We graduated 70,000. In less than 5 years, 
China has more than doubled the number of their engineering 
students who graduated from college. Only 6 percent of the 
bachelor level engineering degrees granted world wide were 
earned in the United States.
    More staggering are the results from national and 
international tests showing that American elementary and 
secondary students are falling behind and will not be prepared 
for the demands of global competitiveness. Only 7 percent of 
America's 4th and 8th graders in 2003 reached the advanced 
level on the International Math and Science Study. By contrast, 
38 percent of Singapore's 4th graders and 44 percent of their 
8th graders did, compared to our 7 percent. In addition, 
American 15-year-olds ranked 24th out of the 29 developed 
nations in mathematics, literacy and problem solving on the 
most recent International Assessment Test. We are losing the 
race.
    A student who takes just one remedial reading course in 
college is 8 times less likely to graduate than a student who 
is fully prepared for college. At a time when most jobs will 
require some postsecondary education, we must focus on who is 
fully prepared for college. With less need for basic reading 
and math courses and a greater likelihood of success in college 
or the workplace, a good education will always be the golden 
key that will unlock the door to a brighter future for all of 
us as individuals, and together as a Nation.
    Often when there are challenges, there are opportunities. 
By taking this opportunity to strengthen and focus our 
education and training systems on ensuring the knowledge and 
skills that we as individuals and the Nation need, we are 
ensuring that America's students are the best in the world and 
they speak the language of success, and that as a country we 
will get more than a passing grade.
    I really appreciate Secretary Spellings being with us 
today. We look forward to your remarks regarding what the 
President is proposing for the U.S. Department of Education to 
meet these challenges. On January 5th, you jointly announced 
with the Secretary of State, the National Security Language 
Initiative to Advance National Security and Global 
Competitiveness.
    The President proposed almost $400 million as part of the 
American Competitiveness Initiative to strengthen the capacity 
of our schools to improve elementary and secondary instruction 
in math and science. These are critical first steps.
    Thank you for being here and for sharing that vision with 
us today. The purpose of today's hearing is to discuss the 
Competitiveness Initiative. I recognize that there are many 
important education topics existing today. However, I 
respectfully request that the committee stay focused on this 
most important topic.
    Senator Kennedy.

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Thank you very much, Senator Enzi, for 
having this hearing.
    Welcome, Secretary Spellings. Our committee always enjoys 
working with you. You have been available and accessible to us 
on this committee on our side of the aisle. We have not always 
agreed, but we have always had a high regard, and deep respect 
for your strong commitment to education, and we want to try and 
continue to make progress.
    I want to thank the chair for having this hearing. I want 
to acknowledge the leadership of our colleague and friend, 
Senator Bingaman, and Republicans as well, in giving life to 
this whole challenge that we are facing here at home in terms 
of being able to compete in the international and the global 
market, and understanding the importance of education. The 
excellent report released by the National Academy of Sciences 
included a series of excellent recommendations. Hopefully, we 
will have an opportunity to consider those recommendations and 
the Administration's recommendations.
    I welcome the chairman's statement, and he really captured 
it very, very well. I would like to have my full statement 
printed in the record. This issue requires a comprehensive 
plan--one that begins with early education, K through 12, 
continuing education, and training. We also have to look at our 
graduate schools.
    Senator Enzi outlined the progress that is being made in 
the other countries, in China and Japan, and the fact that we 
have seen about 70,000 graduate students in engineering. About 
half of those are foreign students.
    My sense is as a Nation we have to make a commitment that 
we are going to equip every individual in our society to be 
able to deal with the global challenge. That ought to be our 
national challenge. Then we have to be able to equip our 
industries, so that they are going to be the innovative 
industries for the next century so that they can compete 
internationally. I think it is as simple as that. We cannot 
just have some winners and some losers and think that we are 
meeting our total responsibility. Our principal concern--and we 
will get into it in the questions--is whether in some of these 
areas which I think are commendable, whether we have closed 
down some programs which have been very, very useful and 
valuable, in the name of introducing others.
    For example, we have seen the math and science teacher 
training program in the National Science Foundation cut back 
significantly. In a program that I thought had great merit, the 
math and science partnership program under the No Child Left 
Behind has been virtually flat funded now for the past 2 years, 
and even the No Child Left Behind teacher quality program has 
been diminished in terms of flat funding, which has meant a 
reduction in real terms.
    We want to make sure, when we are moving off on new 
initiatives, that we are also meeting our responsibility on 
initiatives that have been tried and tested in the past, that 
are working, and which our communities are really relying on in 
terms of advancing math and science as well.
    We look forward to a number of very valuable ideas put in 
the President's State of the Union, and which are expanded on 
in your testimony. There are a lot of very good ideas from both 
sides of the aisle here. We hope to have a real working 
partnership with you to try to get it done in the best interest 
of the children and of this country. Also recognizing that 
continuing education and training is going to be a key to our 
future competitiveness as well.
    Thank you.
    The Chairman. Thank you very much, and with unanimous 
consent, your full statement will appear in the record, as will 
any statements by members of the committee that wish to put it 
in there.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    Thank you, Senator Enzi, for scheduling today's hearing on 
the role of education in keeping our Nation globally 
competitive. It's a privilege to join in welcoming Secretary 
Spellings back to our committee to discuss this important 
topic.
    Globalization is one of the most important and far-reaching 
challenges facing our country and our economy today, and it's 
already leading to massive transformations of our industries 
and our workforce.
    There is no quick fix to this challenge. But we have a 
choice. We can continue to allow the swift currents of 
globalization to sweep us away. Or we define America's own 
destiny with policies that create new opportunities for our 
people.
    I believe that America can rise to the challenge. We can do 
it not by lowering our wages, but by raising our skills and 
equipping every American to compete and win in the new global 
economy. And we can do it by creating in America a new culture 
of innovation and creativity that keeps our Nation in the lead 
in the global market place. Only then will our economy continue 
to grow and prosper, and only then will the good jobs of the 
future be made in the U.S.A.
    That must be our goal. Surely education is one of the major 
keys for doing so. More than ever, we must begin at the 
beginning--by ensuring that each and every young person 
receives a high quality early childhood education, from the 
very earliest years. We've long focused on K-12 and college and 
post-graduate education, but we need to give comparable 
attention to the earlier years as well, because they have such 
a profound impact on each child's later performance in school 
and in life.
    That means standing behind our commitment to leave no child 
behind, so that public education works for every single child. 
Five years ago, we acknowledged that reforms and resources were 
the right formula for improving our public schools. High 
standards, well-qualified teachers, smaller classes, and extra 
help for students who fall behind are undoubtedly the right 
reforms. But we also need the resources to get the job done, 
and to guarantee the financial support they need for college or 
for workforce training programs.
    I welcome President Bush's call to focus on math and 
science. We need to strengthen the teaching of math and science 
at every level--from public schools on through colleges and 
universities--not only to produce more scientists and 
engineers, but to guarantee that America continues at the 
cutting edge of innovation and progress.
    In order to accomplish this, Congress and the 
Administration must help the States to align their curriculums 
in these critical subjects with the needs of the economy and 
the workforce. With adequate incentives, we can recruit and 
retain excellent math and science teachers in high-poverty 
schools. We can encourage investments to adapt state-of-the-art 
technology for classroom use. We can enable more of our best 
students to pursue college degrees in math, science, 
technology, and engineering.
    Each of these investments is an investment in America's 
future. Anything less will shortchange the Nation and its 
future.
    Perhaps the best greatest obstacle is the current fiscal 
climate. Frankly, we simply cannot win in the global economy 
and create the good new jobs of tomorrow on the budget that the 
President presented this week. The budget cuts that the 
President proposes compromise the quality and availability of 
education that is so key to our progress.
    The fiscal year 2007 budget announced on Monday underfunds 
the No Child Left Behind Act by $15 billion. It would leave 
behind nearly 4 million students who need essential services 
under the Federal title I program of aid to disadvantaged 
students. It would leave behind 2 million children who could 
benefit from after-school programs. Twenty-nine States would 
have reduced title I funding.
    It eliminates 42 education programs currently funded at a 
level totaling $3.5 billion, even though many of those programs 
on this blunderbuss chopping block are important investments in 
America's future.
    It seems particularly shortsighted for the President to 
further reduce funding by 27 percent for the Math and Science 
Partnerships program at the National Science Foundation at a 
time when we need the best possible training for math and 
science teachers. Also, the budget should not have proposed 
again to eliminate our current investments in technology 
education under the No Child Left Behind Act.
    It's impossible to justify such reductions. We need to do 
more--not less--to advance these priorities in education. I 
hope that we can work together this year with this 
Administration to re-think the budget and provide the funding 
needed to these critical programs.
    Secretary Spellings, thank you for being here today. We 
look forward to hearing from you about the President's plan for 
Global Competitiveness. All of us on the committee want to work 
with you to see that the Nation's students, schools, and 
colleges can adapt to this new age of global competitiveness 
and rise to new heights.
    The Chairman. Without further ado though, we will go 
directly to the statement by the Secretary of Education.

     STATEMENT OF HON. MARGARET SPELLINGS, SECRETARY, U.S. 
                    DEPARTMENT OF EDUCATION

    Secretary Spellings. Thank you, Mr. Chairman. Thank you, 
Senator Kennedy, and thank you, members, for inviting me here 
before you today.
    I am glad to hear that everything was okay last night after 
the false alarm, and Senator Enzi, I understand you had the 
opportunity to spend some real high-quality time with your 2-1/
2-year-old grandson down there for a few hours in the garage.
    Senator Gregg. We all did.
    [Laughter.]
    Secretary Spellings. And you too, Senator Gregg.
    You and I, Senator Enzi, have been working closely in our 
freshman year on the job here, and I want to thank you and this 
entire committee for your support and for all you have done 
together this year, including providing relief to the victims 
of Hurricanes Katrina and Rita, and I want to especially thank 
you for your recent work to increase the resources available to 
help low-income students afford college.
    The academic competitiveness and SMART Grant Programs build 
on the successful Pell Grant Program, and they will encourage 
students to take more challenging courses and pursue subjects 
that are critical in the global economy, science, technology, 
engineering and math. So thank you for that effort last year 
that the President just signed yesterday and I think it really 
sets the table for the work that is before us.
    I am sure most of you have probably seen the cover of Time 
Magazine, which asks: Is America Flunking Science? Or the 
Business Week Magazine from a few weeks ago, that says: ``Math 
Will Rock Your World.'' And we cannot, any of us, pick up a 
newspaper or magazine these days without reading about global 
competitiveness, especially in math and science. As you all 
well know, our children are not growing up in the same world we 
did, and in the last century this country led a communications 
revolution that connected people around the world like never 
before. And as a result, today, what you know means far more 
than where you live.
    Last week President Bush laid out a bold vision for keeping 
American competitive, and of course, we all agree it begins 
with education. His initiative will double the Federal 
investment in science over the next decade to make sure that we 
continue to lead the world in Nobel prize winners, and it will 
encourage the private sector to make bold investments in 
research and innovation to produce the next big breakthroughs. 
But to do all of this, we must give our students the skills to 
compete and lead in the global economy.
    As President Bush said in the State of the Union, ``We must 
continue to lead the world in human talent and creativity.'' 
And the good news is, is that there are certain things that we 
cannot teach in classrooms that our country already has: 
creativity and entrepreneurial spirit, which means to me that 
we actually have the easier job. What we need to do is give our 
children the skills to compete.
    Unfortunately, we are not where we need to be, as you all 
have recognized. Wherever I go, I hear from Governors, business 
people, educators and parents, that our students are not 
adequately prepared, and there is a wide and growing consensus 
externally as well as in this chamber and around our country 
that we must address this issue.
    I have heard from you all and I have seen the legislation 
that you have introduced, the National Academies, the Business 
Roundtable, the National Governors' Association, are all giving 
us the same message: we must make our high schools more 
rigorous and encourage students to take more advanced math and 
science classes.
    Employers today need workers with pocket-protector skills, 
creative problem solvers with strong math and science 
background. Whether children want to be auto mechanics or 
cancer researchers, they must have these skills.
    Last week I held parent roundtables in Orlando and 
Birmingham. The parents all said we need to help students see 
why math and science are relevant to their lives. I met one 
teacher in Birmingham who had that problem solved. Her students 
were comparing hair strands under a microscope as part of a 
mock crime investigation. It was CSI Birmingham, and I did not 
see many students looking at the clock or asking why they had 
to learn math and science. Math is becoming essential in fields 
ranging from advertising to consulting, to media, to 
policymaking. In my job I like to say, in God we trust, all 
others bring data.
    This fast-changing economic landscape means that our 
education system must keep pace, and on that front we have a 
lot of work to do. Just one State, Alabama, requires students 
to take 4 years of math and science to complete high school, 
and as much as I hate to admit it, that gives Senator Sessions 
bragging rights over each and every one of us.
    Meanwhile, 90 percent of the fastest-growing jobs require 
postsecondary education, and fewer than half of our students 
graduate from high school fully ready for college-level math 
and science. Our 15-year-olds, as you said, Senator Enzi, rank 
24th out of 29 developed nations in math literacy and problem 
solving, and half of our 17-year-old do not have the math 
skills to work as a production associate at a modern auto 
plant. That is simply unacceptable, and we cannot wait until 
students are 17 to address these problems. The competition 
starts in elementary school.
    The President's Initiative will devote $380 million to 
strengthen K-12 math and science. Overall, the Department of 
Education will increase funding for our programs in these 
critical fields by 51 percent. We must improve the way we teach 
math in our elementary schools. It is not just about helping 
younger students develop strong arithmetic skills, it is about 
planing the seeds of higher order thinking. We need to do for 
math what we have done for reading, by building a scientific 
research base of classroom practices that are proven to work. 
The President has asked me to form a new National Math Panel 
that will bring together top experts in the field to do this 
work, and the President's Math Now Program for elementary 
school and middle school students will help bring this research 
to the classroom where it can help teachers and students.
    This is urgent work, and we only have time to do what 
works, and I know some of you have expressed concern about 
resources, but the reality is, the resources are there, but we 
must invest them wisely.
    Currently, 13 different Government agencies spend about 
$2.8 billion on 207 different programs for math and science 
education. These programs are all in their own little silos and 
there is almost no coordination between them. It is a thousand 
flowers blooming and maybe a few weeks. We should align these 
efforts with the principles of No Child Left Behind by 
continuing to hold schools accountable for getting all students 
to grade level in reading and math by 2014, and by giving local 
policymakers and educators the power and the research base to 
do what is best for their students.
    Four years ago, this committee helped drive the passage of 
No Child Left Behind, and thanks to your hard work, today we 
have policy levers and relationships with States that are 
working. No Child Left Behind is making a real difference, 
especially in the early grades. As you know, for example, in 
reading for 9-year-olds, their progress has increased more over 
the last 5 years than in the previous 28. Now we must build on 
the law's foundations to prepare students for more rigorous 
math and science course work in high school.
    A key component of that is expanding the Advanced Placement 
Initiative program, which tells us that just taking one or two 
AP courses increases a student's chance of graduating from 
college in 4 years. The College Board tells us that based on 
PSAT scores, there are nearly half a million students who are 
ready for AP Calculus last year, but did not take it, or have 
access to it. Unfortunately, many students, especially in 
lower-income communities, still do not have the opportunity to 
take these classes. More than a third of high schools across 
the country offer no AP.
    There is something wrong when right here in the Nation's 
capital, suburban Langley High School in Fairfax County offers 
21 AP courses--which is great, fantastic, and we commend them--
while inner city Ballou High School here in the District offers 
but four. With the way we ration these course, you would think 
we do not want students to take them, and that needs to change, 
especially when we know that our students are going to need 
these skills to succeed not only in higher education, but in 
the world of work. Think about the disconnect and the 
implications for our country, when 90 percent of the fastest-
growing jobs require postsecondary education while about 50 
percent of our minority high school students are graduating 
from high school on time.
    Of course, schools cannot offer advanced classes without 
qualified teachers to teach them. If you went to a hospital, 
you would not ask an eye surgeon to set a broken bone. But 
right now, many teachers, especially in lower-income schools, 
are being asked to teach courses outside their fields of 
expertise. That is not fair to them, and it is not fair to 
their students.
    That is why President Bush has called for preparing an 
additional 70,000 teachers to lead Advanced Placement in 
International Baccalaureate classes in math and science. We 
also want to recruit 30,000 math and science professionals to 
become adjunct high school teachers. Imagine a NASA scientist 
teaching high school physics. As a mom with a 13-year-old child 
struggling in 8th grade algebra, I have heard all of the 
excuses for why things cannot be done, parents who say math is 
too stressful for children, teachers who say students are not 
ready for advanced course work, and 13-year-olds who are happy 
to agree and look for the easiest course of study. We must 
raise the bar.
    A few weeks ago, Senator Isakson and I visited a math class 
in Atlanta. From the lesson plan, I thought it must have been a 
5th or 6th grade class, but it was 3rd graders doing higher 
level critical thinking. And earlier this week there was an 
article in the Washington Post about how more and more students 
in the D.C. suburbs are taking multivariable calculus in high 
school because they are learning algebra at a younger age.
    If we raise our expectations, our students will rise to the 
challenge. As the President said in the State of the Union, if 
we ensure that America's children succeed in life, they will 
ensure that America succeeds in the world. As leaders and 
policymakers, it is our job to look down the road and make sure 
our kids are prepared to succeed in the future. We have always 
been the most innovative society in the world, and together we 
will make sure that we always are.
    Thank you for your attention. I will be glad to answer any 
questions you might have.
    The Chairman. Thank you very much for your testimony, a lot 
of good information there, some phrases that we will need to 
use in the future as well.
    Yesterday at the White House we got to watch the President 
sign the Deficit Reduction Bill, which had a new program for 
college to emphasize science and math with some new grants, and 
I have to say from your testimony, that Alabama is going to be 
best prepared to take advantage of that, because if they do not 
take math in high school, they will not be able to specialize 
in it in college, and maybe that will encourage more of the 
States to follow that same path.
    I was caught by your comment that there are 13 Government 
agencies that handle 207 education programs. With the various 
agencies involved in the President's Competitiveness 
Initiative, what steps are you taking to coordinate all the 
pieces so they will align with the goal of No Child Left Behind 
and proficiency in reading and math by 2014?
    Secretary Spellings. Well, Senator, you all took a great 
step in the reconciliation that creates a council that would do 
just that. It calls on me to chair a working group, a task 
force, a commission, that would include representatives from 
the National Science Foundation, the Department of Commerce, 
all the various agencies who are involved in these endeavors, 
and link up and coordinate and inventory what it is exactly 
that we do with those programs and what the effects are. As I 
said, we have literally thousands of grants. Some of them are 
highly effective, I am sure, but we do not have agreement on 
results or outcomes or measures within those programs, and I 
think if they were fully effective, we probably would not be 
here having this hearing about the dearth of math and science 
capability in our schools.
    The Chairman. We will look forward with you on that 
coordination. You also mentioned the AP classes. Now, in order 
for high school students to succeed in Advanced Placement in 
International Baccalaureate math and science courses, they need 
to enter high school prepared for and interested in pursuing 
those subjects. That means that their elementary and middle 
school teachers will play a crucial role. How do we make sure 
that all the elementary students are exposed to a variety of 
science experiences, and what steps can be taken to guarantee 
that elementary students especially have teachers who are 
skilled in these crucial areas of math and science? You touched 
on that a little bit in your statement. Could you expand a 
little bit on that?
    Secretary Spellings. I think one of the things begins with 
looking at a research base and what the issues are with respect 
to curricula and standards in elementary schools. We find, and 
what I hear from mathematicians and experts in this area, is 
that while we are doing a lot of arithmetic, a lot of 
computation, adding, subtracting, multiplying and dividing, we 
are not adequately seeding higher order thinking. When I say 
that, I mean multistep processes, the ability to add together 
an equation, and then subtract it from something else, and come 
up with an answer. Those are the sorts of things that students 
need practice and facility on if they are going to make it in 
algebra in 7th, 8th or 9th grade. So just as one example, I 
think there is curriculum work to do.
    Likewise, I think we are called upon to establish and look 
at what are the most effective practices, what are the most 
effective teacher training initiatives and elementary school 
investments that seem to be having the greatest effects? 
Because they are out there around the country. We are just not 
doing them widely enough, and that does get back to this 
coordination of resources and alignment of programs.
    The Chairman. Thank you. Another thing that you mentioned 
in your speech was the need for pocket-protector skills. As an 
accountant, I remember once saying to my kids that I was 
looking forward to the time when pocket protectors would come 
back into fashion.
    Secretary Spellings. Well, it is here.
    The Chairman. And they assured me that they never had been 
in fashion.
    [Laughter.]
    But I will keep hoping.
    I do know that improving literacy among the adolescent 
population is critical if we expect students to succeed, to 
graduate on time, to enter postsecondary institutions without 
the need for remediation. How can the Department of Education 
work to improve reading skills for all students beyond the 
first four grades? How do you envision involving high school 
principals and the teachers in high school in all the subjects 
of this task?
    Secretary Spellings. I think it is a variety of ways. One, 
we know that we must find ways to extend the very valuable 
research base that was developed at NIH, the National 
Institutes of Child Health and Development, that tells us how 
young children acquire reading skills, and that is becoming a 
way of life in our elementary schools. We need to figure out 
how to extend those same strategies and principles into our 
middle schools, because, absolutely, when students do not have 
facility in reading, they are going to have a hard time 
mastering a 9th grade textbook. We think we can do that. There 
is some very encouraging work going around the country. In 
Kansas, Don Deschler is working on how to take these principles 
with older learners.
    We must make sure that our middle school teachers have some 
capacity and understanding of how to teach reading, if you 
will. We have expected--and rightly so, obviously--our 
elementary school teachers to be primarily reading teachers, 
but we also expect our middle and high school teachers to be 
content area experts and not reading teachers, and we are going 
to have to embed some of those skills likewise in the higher 
grade levels until students get caught up.
    The Chairman. Thank you. That has been very helpful.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman.
    Part of the concern that I have is whether this program is 
going to be of general benefit to all children and provide 
opportunity for all children in terms of the math and science 
AP program, to move a whole generation of children forward, 
which I think is the central challenge. Amd President Bush's 
proposal is sort of against a background where the 
Administration is cutting back on a number of programs. For 
example, the TRIO programs. We find out that students in Upward 
Bound are four times more likely to earn an undergraduate 
degree than students in similar backgrounds who were not in 
TRIO. The students in TRIO support service programs are more 
than twice likely to remain in college than those of similar 
background who do not participate in the program.
    We have some in my own State, 52 projects, 21,000 students 
that are in those programs. It has had a remarkable success in 
opening up opportunities for children that come from 
disadvantaged backgrounds. The Administration is attempting to 
eliminate those, which is troublesome.
    I am concerned about the students that are in community 
colleges. Forty-five percent of all college students are in 
community colleges, and better than half of those are working. 
They have to work. We have seen the explosion of loans that are 
going to students. These kids all have to work, and they are 
going to have difficulty in participating in these programs 
because they come, generally speaking, from schools that do not 
have a rigorous curriculum. We are going to try to work on 
that. But their chances of moving along in terms of accessing 
AP courses, and later college. Their opportunities are going to 
be extremely limited. As I understand it, only about 10 percent 
of the total Pell grant recipients are going to be eligible for 
grants under the Administration's new standards.
    So that is the first time that we have ever had the Pell 
grant program where rather than raising all of the children who 
qualify academically and are able to get into the schools, we 
are discriminating on the high school they attended. By 
weighting it towards a small group, it is only going to reach 
about 10 percent of poor students---at least that is my 
information.
    I think what I am saying is how are we going to try and 
recognize we have to deal with this as a country, as society, a 
total education system. It looks like we may very well be in a 
shell game here of robbing Peter to pay Paul in terms of some 
of these programs, where we ought to be trying to lift 
opportunities for the entire generation of students that are 
going on into the school, and getting them into math and 
science. I agree with you that the earlier the intervention in 
terms of math and science, the better. But, whether this 
program is skewed toward the later, rather than the earlier, is 
something that we are concerned with.
    In my own State of Massachusetts we have 72,000 jobs 
waiting there, and 170,000 people unemployed. So job training 
and skills is a major challenge. You have important reductions 
in the WIA program and other work training programs, continuing 
education programs. I am just trying to see where these all 
sort of connect. We can find some programs that have a lot of 
appeal, but how they sort of connect to make sure that we as a 
society, and as a country, and as this next generation, have to 
sort of move along together. I know it is a general statement. 
But maybe you could help us by how you view it, how the 
President views it, make sure that we are not going to find 
greater kinds of disparities now, greater advantages for some 
kids. Obviously, some will have ability, but we do not 
guarantee an equal society. We try and offer at least 
opportunity for these kids to move along.
    Secretary Spellings. Absolutely, and I completely share 
your concern, Senator. I think one of the things that will get 
us off to at least some information that may help us all do 
this work is to figure out, what are we doing? How much is then 
allocated to high schools versus elementary schools, versus 
community colleges in our $2.8 billion investment, and frankly, 
we do not really know that at the moment.
    You have said a mouthful on resources, and I think we need 
more information, and we have some challenges about how to 
allocate our priorities. Should we be paying more attention at 
the high end or at the low end or at the middle, or all of 
those sorts of things that are at issue.
    Let me speak to the TRIO, GEAR UP, vocational education 
matter. What has been presented in the President's budget is 
essentially a gathering up of those resources and some 
additional resources to create a high school initiative, which 
says to States, ``Here is a larger block grant, if you will, a 
$1.5 billion high school initiative, and please go out and do 
effective programs.'' So rather than have various isolated 
silos that are competitive grants that some States get, some 
States do not get, they are allocated within States, that we 
are trying to be more comprehensive and more discretionary with 
States and localities about what the specific programs and 
needs are in your area. We have said, all of us together, that 
we expect proficiency by 2014, and I think one of the things 
that certainly was at issue in No Child Left Behind and is the 
President's budgetary philosophy is that we be very clear about 
the result, but have some discretion about how States allocate 
those programs.
    I am confident when TRIO, GEAR UP, vocational education 
programs like that work effectively, they will be embraced by 
States, and they will continue.
    With respect to the community college issue that you raise, 
this, obviously, is over in the Department of Labor, but he has 
asked for $150 million to enhance dual enrollment programs so 
we can make sure that the articulation between high school and 
community college is strong, and that those students, as I 
said, if you are going to be an auto mechanic or a cancer 
researcher, the currency is the same, more technical 
capability. Whether we find that in advanced placement or we 
find that in dual enrollment programs in community colleges, 
the job is the same, the skills are the same irrespective of 
what your pathway might be.
    Senator Kennedy. My time is up, but I appreciate your 
explanation. These are the things we will certainly want to 
work with you on.
    Thank you, Chairman.
    The Chairman. We are very fortunate on this committee to 
also have the Budget Chairman, as the most senior member. 
Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman. It is a pleasure to 
be here. I usually ask a lot of questions, but I want to get 
into this philosophy for a moment and talk about it for a 
second, because Senator Kennedy has touched on what I think is 
the core issue that we as the Federal Government must address, 
and that is where we put our resources.
    Secretary Spellings. I agree.
    Senator Gregg. No Child Left Behind, the theory of it was 
that we would set up a standard where we asked States to set 
their own standards in local communities as to how much a child 
should learn in the areas of reading and math. We did not go 
into subjective subjects, or social or political courses, or 
Government courses, but rather we just stayed with core 
courses, math and reading, because we felt you could evaluate 
them, and you could set bars. The Federal Government I think 
has now agreed, and there is a consensus that we should play a 
major role in the area of math-science education.
    The question becomes, how do we do that? Do we attempt to 
raise the entire world of math-science education, or do we 
attempt to address those who we think can succeed and give them 
the opportunity to participate in the success?
    Senator Kennedy is representing--and it is a legitimate 
position--that we should try to raise all the boats at the same 
time. There is an argument, however, that AP course, by 
definition, expect students who excel in those fields to 
participate in them, and that everybody is not going to take an 
AP courses, just like everybody is not going to be a star 
athlete, everybody is not going to be an artist, and everybody 
is not going to be a writer.
    But if we as a Government are going to choose to try to 
pursue a course of competing in the world, and we have decided 
that the best thing that we can do is promote math-science as a 
Government in order to accomplish that, then I think we have to 
choose an approach to that that finds the people who are going 
to succeed in that area, and gives them the opportunity to 
succeed. What is the Federal role in that? Does it enter at the 
elementary school level, at the junior high school level, at 
the high school level, or at the college level?
    Traditionally the Federal role has entered at the college 
level where we have subsidized dramatically research. Now, the 
Administration is suggesting, no, let us step back and take it 
to lower levels of education or to our entry levels of 
education. How do we do that?
    You threw out a number which I find to be the most 
startling, and unfortunately, the most difficult number we deal 
with, which is that at Langley High School there are 41 AP 
courses, while in an inner city Washington high school there 
are two or three. At Langley High School I suspect you will 
find a 98 percent graduation rate. At the inner city school, 50 
percent of the kids are not even finishing in 5 years, and if 
you looked at the young male population at those schools, it is 
probably 80 percent. It is a huge cultural problem. How do we 
get a program that supports a child in that atmosphere, where 
basically education has been disregarded, regrettably, by their 
peers, to participate and to see it as an avenue of 
opportunity? Because there are a lot of kids at that school who 
start out who have the ability to participate. There are going 
to be a lot that maybe do not, as there are also at any other 
school.
    But how do we structure this program so that to the extent 
the Federal Government plays a role here--and obviously, the 
majority of this has to be played at the local level and the 
State level and the community level--we can answer the question 
of the child who comes into that school with a huge 
disadvantage and that the peer pressure is basically the 
opposite of being a participant in academic success, actually 
is able to participate in academic success. And we have tried 
this for years, and we have not made any success at all in this 
exercise.
    I participated at a Governor's conference which the first 
President Bush called at Charlottesville, and this was the 
issue we discussed. We were going to improve our math-science 
scores for students by the year 2000 and be, instead of 13 out 
of 15 industrialized nations, our target was to be like 5th or 
6th, and we are still probably 13th.
    I do not see us addressing this issue with just dollars, 
and I am not sure how we address it, but I would be interested 
if you thought about it at all in these terms.
    Secretary Spellings. I absolutely have. I thank you, 
Senator Gregg, and Senator Kennedy, you have exactly hit on the 
right issue, which is, are we talking about opportunity for 
everybody or the high-end innovators, the Bill Gates's of the 
world, or both? I think the answer is both. I would 
respectfully disagree and I would respectfully give you credit 
that we are seeing changes. Because of No Child Left Behind, 
because of focusing on each and every subgroup, because of our 
focus on math, we see places like Senator Isakson and I visited 
in Georgia, a very high poverty school, where those kids are 
knocking the top off the Georgia math standards, and doing very 
high-level work. We can do this.
    Part of the problem--and I hate to be a broken record--
starts with we have not really looked at what is the effective 
strategy? How do we do it? It is what I call the ``tell us what 
to do and we will do it'' phenomenon, and obviously, that is 
overstated, but we have done a poor job, despite our $3 billion 
annual investment, of really informing the education community, 
you know, what works, what are the strategies, what are the 
kinds of conditions that have to be at place for students to be 
effective like in the place that Senator Isakson and I visited.
    I think we can do it. I think it is also important to note, 
and obviously, I am here to talk about, but one aspect of the 
American Competitiveness Initiative, that there is a $900 
million call for additional resources in investment in research 
and development. That is largely going to be in our higher 
education community. It is going to be partnerships of 
``brainiacs'' who do these sorts of things, and as well, the 
extension of the Research and Development Tax Credit. Most of 
our innovation is coming from the private sector. So that is 
the incubator, if you will, for that kind of talent. But I 
think it is our job, as a major part of this American 
Competitiveness Initiative to make sure that we have, and we 
expect, and we can do, and believe we can do, more rigor for 
more kids.
    I agree completely, it starts in elementary school with 
seeding interest, and creating a culture of interest, 
engagement and setting the table for the capabilities that will 
allow this successful demand for more rigor.
    Senator Gregg. Thank you.
    The Chairman. Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    Secretary, thank you for coming. Let me State what I think 
is obvious to everybody here, and that is that I am 
disappointed that the Department of Education budget is slated 
for nearly a 4 percent cut this next year. I think that is too 
bad. I think it reflects misguided priorities within the 
Federal budget.
    However, even with the smaller budget, there are some 
things the President has endorsed, the Administration has 
endorsed that I strongly support. The proposal to provide 
additional funds for AP instruction is a very good proposal, 
one I have urged on the President, and I know you are a strong 
supporter of that. It is part of what the National Academy of 
Science has recommended. They recommended two things though 
with regard to advanced placement instruction. They recommend 
that funding for advanced placement, training of advanced 
placement teachers, but also funding of pre-advanced placement 
teachers. And I think you found in Texas that you cannot do an 
effective job of providing advanced placement opportunities 
unless you prepare those students ahead of time, and that means 
upgrading the skills of the teachers in those middle school and 
earlier grades.
    Why is that not something that the Federal Government ought 
to be trying to put some resources into also?
    Secretary Spellings. The initiative the President has 
called for could include pre-AP, and we do not mean to limit it 
just to high schools, per se, but to pre-AP or AP classes.
    One of the things that I think is very important--and 
Senator, I know you have seen this with your own two eyes at 
Townview and some of the things that are going on in Dallas 
that the President visited about a week ago--is when teachers 
are taught to teach AP calculus or AP anything, they also have 
a course load of nonAP subjects. So the teaching is upgraded 
throughout their course load, and so I do think that we do not 
mean to limit this just to high school only, that these 
resources ought to be available as well for pre-AP.
    Senator Bingaman. One other area that this National Academy 
report emphasized was the need to put funding into training of 
current and future teachers to be better qualified to teach 
math and science. As I understand your Math Now Initiative, you 
are proposing 260 million for curricula development, 
essentially, but nothing that would go to upgrading the skills 
of current and future teachers in math and science. Am I 
missing something in there?
    Secretary Spellings. Yes, sir. The $260 million could be 
used either for ingraining or embedding this higher-order 
thinking, as I keep calling it, in elementary schools, and as 
well, making sure that those teachers that are teaching 
elementary school are prepared to do it. So we do not need to 
limit to exclude teacher training as part of that initiative.
    Senator Bingaman. So that $260 million would be available 
for teacher training?
    Secretary Spellings. Yes, sir.
    Senator Bingaman. Because the National Science Foundation, 
as I understand it, has already published information, and 
identified information about what they believe are effective 
math and science curricula. At least in my State I do not hear 
instructors or teachers or school administrators coming back 
and saying, ``We do not know what the right curricula is.'' 
They have a good idea what it is, they just do not have enough 
people that know how to teach it. The teachers do not have the 
content training that they need.
    Secretary Spellings. I think that is certainly part of the 
problem, and we also know that the results--I mean if that were 
true, I assume we would see better results for more kids at the 
elementary grades. I think there are--we do have a research 
based lack of information about how we teach struggling kids to 
facility in mathematics. We are not doing that very well now, 
and I think there are questions about how to do that.
    Senator Bingaman. One issue that I have focused on 
repeatedly, and with very little success, unfortunately, here 
in the Senate, is this problem of more and more of our kids 
leaving school before they graduate, dropping out of school. 
Senator Gregg talked about that. It seems to me that there are 
bound to be some strategies that work in trying to retain 
people in school, and try to keep them engaged, and educate 
them. Particularly this is a problem throughout the Southwest 
with the Hispanic community, which is a very large community in 
my State and in Texas as well, but it is true for all groups in 
society. We have a very serious dropout problem. We have 
authorized, as part of No Child Left Behind, funding to try to 
assist schools that want to adopt policies that reduce the 
dropout rate.
    The Administration, every year, requests zero funding for 
that, and that has been the case since No Child Left Behind was 
enacted. Is there any way we could get some support from the 
Administration in coming to grips with that dropout problem?
    Secretary Spellings. Certainly, Senator. I think it is all 
in the matter of how you do it, and I think there are three 
things that I would say about that. One is we do not really 
fully understand why that is, why do students drop out? We 
think sometimes it is a lack of reading skills. We think it is 
boredom, disengagement, lack of relevance. But until we have 
some accountability and measurement in high school, it is going 
to be hard for us to fully know that I think.
    One of the things--and Senator Murray is very keen on this 
as well--is this sort of individualization, this notion that we 
need to--in fact, I was very heartened to see Governor Perdue 
in Georgia talk about a counselor, a State initiative that says 
how are we going to get each and every kid out of high school? 
What are the conditions? What are the interventions and so 
forth? So that sort of notion. And as well, I think we need to 
promote reading instruction in middle and high school that can 
make sure that kids can do more rigorous work.
    Senator Bingaman. My time is up, Mr. Chairman.
    The Chairman. After a couple of full committee hearings to 
kind of set the stage, we will be turning a lot of the work 
over to Senator Alexander and his subcommittee to pursue the 
global competitiveness, and we thank you for all the effort 
that you put into setting the stage for that and working with 
the National Academy of Sciences.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    I would first like to congratulate Secretary Spellings and 
the President for the President's American Competitiveness 
agenda. The most important thing a President can do is set the 
agenda. He is the Nation's agenda setter. And the second most 
important thing he can do is fund it to make sure it works, and 
we are off to a good start in that.
    I also want to call attention to the work that Senator 
Enzi, especially, with Senator Frist, Senator Gregg, Senator 
Kennedy, was involved in December in the SMART Grants. That is 
a big program. It affects 500,000 students. It is $3.7 billion 
over 5 years, which is more money than we are talking about in 
all these new programs here. So that is a part of what we are 
talking about. It is already done, and deserves a lot of 
attention.
    Following up on what the chairman said, we are going to 
begin hearings later this month, I hope, in our subcommittee, 
on K-12 recommendations of the National Academy of Sciences and 
other related ideas, so that we can make our recommendations to 
the full committee. We will be looking at the suggestions that 
are in the President's proposal as well for K-12 on math and 
science. We will have to look at the situation of all of these 
programs, 13 agencies, 207 programs. What occurs to me then is 
assessment is needed. It does not always equal the need for 
consolidation. Sometimes letting a lot of flowers bloom is the 
best way in a complicated country to let good things continue 
to work. But we will begin the process of continuing to look at 
all of that.
    I wanted to specifically ask you if when we get to those 
hearings, which will be at the end of this month, early next 
month, if your Department would be prepared to give us your 
opinion about the proposals for K-12 that were in the proposal 
of the National Academies of Sciences and Engineering? You have 
specifically recommended one, the President has, which is the 
advanced placement courses in math and science, which Senator 
Bingaman, Senator Hutchison and others have worked on for a 
long time. There are five others that are not in your 
proposals, and I know that the Academies went through their 
process of weighing lots of different models, lots of different 
programs, and they came up with six recommendations in K-12.
    They include a model, which is the UTEACH program, which 
you are familiar with at the University of Texas at Austin, 
which would, over 10 years, identify 100,000 teachers who are 
already taking the sciences in college, give them up to $20,000 
a year scholarships, and then give them $10,000 a year if they 
will stay teaching for 5 years, getting at that differential 
pay problem which is such an obstacle to everything we try to 
do. That is not in yours.
    You do not talk about residential high schools, of which 
North Carolina has had for 20 years. It is a very appealing 
idea. It does not reach many students, but it is a great symbol 
of importance, and that was one of the Academies' 
recommendations.
    It does not get into the idea of summer internships that 
the Academies recommended, both for teachers and students, 
using our 17 national labs. We found in Tennessee that we could 
not afford that residential summer high school, but we had 
great success with what we called Governor Schools for Teaches 
and Governor Schools for Students. This recommends such schools 
to upgrade teaching and identify talented students in the 
hundreds of thousands.
    You may want to say something about those now, especially 
about the UTEACH program, which I thought was a tremendous 
model for the country.
    Secretary Spellings. Absolutely, and we will certainly get 
you more information about this going forward, but let me 
address the three things you mentioned.
    With respect to UTEACH, clearly, we are strong supporters 
of that notion, no doubt about it. The Teacher Incentive Fund 
that you all are looking at as part of your higher education 
reauthorization, and that I have gotten some resources for, I 
think can help us seed some of those sorts of things.
    So I guess the reason that the President picked some of 
these particular strategies is that we are already seeding some 
of these activities in other ways, and the Teacher Incentive 
Fund is one of the ways that we would seed more UTEACH. 
Likewise, loan forgiveness and some of the other programs like 
that.
    With respect to residential high schools, I think the 
President's philosophy is that those sort of how schools are 
organized, whether they are charters or small or residential or 
whatever, have typically been in the purview of Governors and 
States, and that we would not prescribe kind of particular 
sorts of settings and groupings.
    With respect to the internships at labs, one of the things 
that I have observed--and certainly they are great programs--
but first of all, the labs, obviously, are not necessarily 
nationally available to schools all around the country, and 
that frequently in summer institutes and internships and these 
kind of lighthouse programs, it is our very best, most 
proficient, the teacher who is teaching four AP classes already 
that attend and participate, and that is fabulous for them, but 
I think, again, we are back to this issue of what kind of 
investments, for whom and to what end? And one of the things 
that I think is at issue with the President's initiative is to 
try to seed and bring to scale more broadly, more rigor and 
more capacity in the system generally.
    Senator Alexander. Thank you.
    The Chairman. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, not only for your testimony 
today, but for your leadership and your cooperation. I 
appreciate it very much.
    Your Department is creating both a Teacher Incentive Fund 
and an Adjunct Teacher Core Program, but this is in addition to 
the No Child Left Behind Title II Teacher Quality Block Grant. 
Can you describe the thinking behind these new programs and 
whether they could have been accommodated through the block 
grant?
    Secretary Spellings. Well, certainly they could. I think 
what we believe is that there are some early adapters, some 
pioneers, some places around the country that we might want to 
partner with to test some theories before we make them 
available more widely. We are unsure, I think, in some of these 
cases how this would work. Let us work the design kinks out on 
how we best bring experts from the field, how we best devise 
compensation systems that recognize subject area expertise. So 
let us try these things on a more pilot-limited basis with 
people who are most willing before we take them to scale.
    Senator Reed. And they would be taken to scale through the 
Title II Block Grant Program?
    Secretary Spellings. Yes, sir.
    Senator Reed. We have all spent a lot of time on the 
committee, as have you and the Department of Education, trying 
to improve teacher quality with induction in mentoring 
programs, with scholarships for teachers who teach a particular 
subject or go to a particular area of the country, and with 
loan forgiveness. We went through, I think, a very valuable 
exercise in No Child Left Behind Act, talking about highly 
qualified teacher provisions, and the States are doing that. 
But it seems that in the Administration's budget, they are 
proposing to zero out the Higher Education Act's Teacher 
Quality Enhancement Program, which I think would be another 
component of this effort to increase the quality of teaching. 
Can you talk about the rationale for proposing no funding for 
this program?
    Secretary Spellings. As I said, Senator--and this is true 
with respect to that or any number of programs--that the 
President's budgetary philosophy is, let us be clear about 
expectations and goals, and then provide ways for more latitude 
through title II, through title I, through a high school 
initiative, as opposed to very specific stipulated programs 
such as that.
    Senator Reed. Thank you. You are talking about math, which 
is essential, but the criticism usually includes another 
dimension, math and science. Can you comment a bit about the 
issue of science in your plans? Do you assume that is just so 
closely related to math, that it will be done sort of 
automatically?
    Secretary Spellings. No. And thank you for asking me that. 
I think we see it as math now, because those skills are so 
embedded in science, and then sort of science next. One of the 
President's proposals is--and as you know, No Child Left Behind 
calls for science assessments beginning in the 2007-08 school 
year--that those two would be part of the accountability 
system. I am a firm believer, as you know, in what gets 
measured gets done, and that we ought to place a high priority 
on science. So I think it is a matter of what do we do first 
and what do we do next? And the President believes math first, 
science next, and that we ought to measure and hold people 
accountable for proficiencies in science.
    Senator Reed. Very good. A final question if I may. Can you 
elaborate on the Advanced Placement International Baccalaureate 
Incentive Program, and essentially, how will it help train 
70,000 teachers?
    Secretary Spellings. That is a 5-year goal that the 
President has laid out. We currently have about 35,000 
teachers, by the way, who teach math, science or English, so 
35,000 nationally in those key subject areas. This is, 
obviously, a huge and needed ramp up. We have talked about some 
of the course rationing and so forth.
    I think what we would envision in this is a competitive 
grant program that would imply basically a matching sort of 
commitment on behalf of the private sector, State Governments, 
and the Federal Government, so that we could leverage a lot of 
support for advanced placement teachers. We would be very open 
minded with States about the kinds of things that they would 
want to design into those programs, be they pay incentives for 
teachers, incentives for students, paying students for the cost 
of taking those sometimes burdensome exams with respect to cst 
for poor kids. So I think we would envision kind of an array of 
thinking for States, and would be open minded as to how they 
would want to design these programs to help us reach these 
training goals an bringing AP to scale more broadly.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Secretary Spellings, thank you for coming to Atlanta. I 
want to try to address what Senator Kennedy and Senator Gregg 
talked about somewhat in the context of our meeting. It is not 
a secret why Gideon's Elementary School--and for everybody 
listening, the school we visited was in the midst of inner-city 
Atlanta, almost total minority, almost total title I abject 
poverty school, that is testing and assessing competitively and 
better in many cases than schools with far different 
socioeconomics. And it is not a secret. They have a great 
principal who is a great leader, who attracts good teachers 
because he backs them up and he insists on excellence, and that 
was his 25th year.
    No Child Left Behind has removed some of the veil of what 
administrations hid under in America for so long in education. 
Many of our administrators hid under the average performance of 
students by test scores. By disaggregating, like was done with 
No Child Left Behind, and having the term ``needs 
improvement,'' administrations could no longer hide under 
averaging. So it has raised the level of administrative support 
for student achievement to teachers. I think that is No. 1, and 
that is to the credit of No Child Left Behind.
    Second, and I support the initiative of the Administration 
in math and science, but I will submit to you there is only one 
way we are going to be able to do this--we have trouble, as a 
Federal Government, accelerate advanced placement to our 
schools where we do not have it, inner city schools, rural 
schools, because you cannot either get the teachers to teach 
there, or because rural communities in distance and 
accommodations are not necessarily attractive. The only way we 
are going to do it is through broadband Internet classrooms. 
South Dakota was a pioneer of that.
    I was in Egypt a few years ago with Save the Children, and 
saw an Egyptian teacher teaching English to Egyptian children 
with download from a satellite, broadband satellite over Egypt. 
Well, the same thing could be true here. With all due respect, 
we can train all the teachers in the world, but to get them 
then to move to a lot of areas that may be rural or distant--
wonderful areas, places all of us that live in metropolitan 
areas would long for--but it is tough for them to recruit. It 
is tough for them to recruit in the inner city. But it is not 
tough if you can deliver the quality content via the Internet 
and have a support teacher, who may not be an AP teacher, but 
they could support the quality of content coming and the 
instruction that is coming from the teacher over the Internet. 
That is what we really ought to accelerate.
    Then my last point--and I am supposed to be asking 
questions and I am making statements. I apologize for that. But 
also, we need--I have said this for years, and when I chaired 
the State Board of Education in Georgia and we dealt with 
teacher shortages--our colleges of education, by and large, 
still think Wally and the Beaver go to school, and Ozzie and 
Harriet are their parents. And our schools now have Jose and 
Maria, and a totally different type of student. We need a re-
engagement with our colleges of education in what the real 
classroom is like today, so that as they are preparing our 
teachers theoretically, they also have some idea for what the 
environment they are going to teach in.
    I proposed in Georgia that every professor of education in 
the country ought to have to teach at least 1 out of every 5 
years in a public school. That caused more uproar than I 
bargained for, but the truth of the matter is, the more time 
and distance and space you put between the 21st century reality 
of the classroom and those that are instructing the teachers 
that are going to teach, the more you are going to have losing 
teachers in the first 3 years, the less you are going to have 
of teachers wanting to teach in advanced placement and all 
that.
    I have sat here and wasted 4 minutes by making statements, 
but we need to understand what No Child Left Behind has done to 
remove the veil from the Administration and really motivate 
administrators to support teachers. That is to the greatest 
credit of that particular legislation. I think we need to work 
on broadband expansion and accessibility to our rural and inner 
city schools at every level we can, federally, title III would 
maybe be the right title in the ESEA, I am not sure. And then 
last, work with our colleges of education to be supportive of 
our teachers in the environment we are sending them into today.
    So that was a statement. I apologize, but I will end by 
thanking Secretary Spellings for coming to Atlanta and coming 
to Gideon's. That was a great day.
    Secretary Spellings. It was. Thank you, and I agree very 
much on the technology in rural environments. Also, I think 
that is a place where we can look at adjunct teachers. I mean 
maybe the extension agent, who has a strong degree in 
agriculture and math and science and chemistry, maybe that 
person ought to have some sort of role to bring that competency 
to schools.
    Anyway, I enjoyed it very much, and it shows the world at 
Gideon what can be done more broadly, and must.
    Senator Isakson. Thank you, Secretary.
    Secretary Spellings. Thank you.
    The Chairman. Senator Murray.
    Senator Murray. Mr. Chairman, thank you very much for 
having this hearing. I think this is really an important topic 
about global competitiveness and the role of education. I have 
said before that when I was growing up, my parents always used 
to say, ``Clean your plate because there is some kid in China 
or India who is starving,'' and I think what parents should be 
saying to their kids now is, ``Do your homework. There is 
someone in India or China who is doing theirs.'' We face that 
competitiveness, and I believe we have to invest in our 
education system. Our people will be our ability to compete in 
a global economy, and I think it is absolutely critical that we 
face this.
    I was delighted to hear the President talk about this new 
competitiveness initiative, and I have to say it was good to 
hear that he recognizes the need for our country needs to focus 
on this.
    I serve on the Budget Committee, and I was really surprised 
when we got the budget for education, and it was cut by over $2 
billion, because we want our kids to do well in math and 
science. That is absolutely critical, but it does not happen in 
a vacuum. If kids cannot read or if they do not get the kind of 
attention they need, they are not going to be able to achieve 
in math and science no matter how much we focus on that.
    There is also the additional fact that we just cut $12.7 
billion from student loan program. If you have a student who is 
in 10th grade and they do not think they can ever afford 
college, you can focus on math all you want to, but they are 
going to say, ``I am never going to be able to afford to go to 
college.''
    I am concerned about the overall budget for education and 
want to hear from you how the President proposes to make gains 
in math and science while all the rest of the education budget 
is so neglected and so seriously cut back.
    Secretary Spellings. Senator, I will be glad to. Thank you. 
I think the first thing we must do is make sure that what we 
are investing our resources in is working effectively and 
wisely and well. I have talked about the very disparate efforts 
that are going on all around the Government and so forth, and 
that we need to channel those and hitch them up and align them 
to the principles of No Child Left Behind and so forth. These, 
granted, are tough budget times, no doubt about it. I do think 
if we focus on those particular things as our priorities, and 
hold ourselves accountable, and know what works, then we can be 
effective even in these tight budget times.
    I do want to mention a few things about Pell, and as I 
said, I commend you all for the STEM grants, academic 
competitiveness grants beginning at $750 and going up to 
$4,000, literally nearly doubling Pell as a way to start to 
seed the kind of talent that we want and need so desperately.
    I will say that the savings--and, Senator Enzi, thank you 
for your leadership on this--really was in the lender community 
and not at the expense of students. There will be 59,000 more 
students who will be accessing and eligible for Pell this year, 
and the fact that we are strategically investing our resources 
and saying as a Nation it is more of a priority for us to have 
math and science----
    Senator Murray. I hope that what you are predicting is 
true, but I am hearing a lot on the other side, and I am 
certainly hearing from 10th graders out there that they are 
giving up on the thought of going to college, which is not what 
we want to hear.
    Let me follow up. Senator Reed asked you a question about 
teachers and their role in all this. I think you can put money 
into schools, but if you do not have teachers who can teach, 
that is a serious concern. I share his concern. Under No Child 
Left Behind, teachers have to be highly qualified. We have set 
that standard. I think that is absolutely critical. But yet we 
see a number of the programs that have been in place that are 
working--from Improving Teacher Quality State Grants, to the 
Teacher Incentive Fund, Troops to Teachers, Transition to 
Teaching, Advance Credentialing--all cut back or zeroed out. So 
I share his concern that unless we as a Nation focus attention 
on making sure we have a good teaching role, you can put kids 
in a classroom and tell them math is important, but if there is 
not somebody that can impart that information, it does no good.
    So let me ask you about the Adjunct Teacher Core Program 
that is being proposed, which I think is great. Getting more 
people into teaching with those kinds of skills is important. 
But I have been a teacher, and I am concerned that just putting 
somebody who knows math in front of 30 kids does not a teacher 
make. So how is your program going to work so we make sure they 
understand how to teach, as well as to have the knowledge about 
the class they are teaching?
    Secretary Spellings. Thank you for that question. I think 
we would use models like Troops to Teachers, Teach for America, 
the New Teacher Project, programs that have shown us how to 
take qualified individuals and make them teachers. So we will 
build on those sorts of successes and find ways that we would 
bring part-time professionals into our classrooms, as well as 
those who want to be there full time.
    Senator Murray. I do not understand, because I hear you 
saying those programs are a success, yet the budget that we are 
getting is cutting them back or zeroing them out. Is the 
Federal Government, under this Administration, stepping away 
from those programs, or----
    Secretary Spellings. I think what we believe is that those 
programs have taken hold in local communities and States. The 
States and localities have invested in them. They have seen the 
productivity in them. We are focused on these results in No 
Child Left Behind, and those are strategies to get them there, 
and we are strongly supportive of Troops to Teachers and Teach 
for America.
    Senator Murray. I know you are from a vocal point of view, 
but when the school districts all of a sudden see the rug 
pulled out from under them because the funding is no longer 
there, then they have a hard time understanding what the goal 
is. I think we just have a disparity between the rhetoric and 
the dollars to back it up, and that is a challenge that we are 
going to continue to be talking about, so thank you.
    Secretary Spellings. Thank you.
    Senator Murray. My time has run out, but I do appreciate 
your focus on high schools, and I hope that we can have another 
conversation about that as well.
    The Chairman. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    These are important issues indeed. We are making 
significant progress, and I appreciate the Administration's 
commitment to focusing more Pell grant type support for math 
and science for college students, which has been walled off in 
a way that cannot be raided according to the legislation. I 
have some difficulty philosophically with these almost 
entitlement programs, but you insisted on that, and we passed 
it, and I think we will actually see that happen. So the money 
will be walled off for college students for scholarship help 
for math and science in a $3 billion program, big deal.
    Thank you for your kind comments about Alabama. I am so 
proud of what they are doing. I am proud that Massachusetts is 
following up on our reading initiative. We also have a math and 
science and technology initiative.
    I would just like to share a few thoughts with you, and we 
may be on something that is very important. I believe in the 
reading initiative and the math and science initiative that is 
now coming on board following some of the same principles in 
the State of Alabama. Our program is designed to help teachers. 
What we have been doing over and over again, Mr. Chairman, is 
we have been demanding that teachers get better results, you 
have got to have better reading scores, better math scores, 
better science scores, you must do that. But we have not really 
helped them figure out how it is that children learn and helped 
them teach better.
    The President of Harvard was before this committee a number 
of years ago, and I asked him, ``Do you have any thoughts on 
education?'' He said, ``Senator, one of the things that I think 
we lack is a proper understanding of how children learn. If we 
knew that better, we could get better results.''
    What they are doing on reading is having some fabulous 
results--I have visited at least 15 Alabama schools with the 
reading initiative. It is a scientific-based program. It does 
not cost a lot of money. Teachers go for a week of training in 
the summer before the year starts, and they become trained in 
how to teach in this program. There is a coach involved in each 
school that helps coach the teachers in the program, and they 
identify from true evaluation tools, testing on a weekly basis 
how children are doing, not just at the end of the year. No 
Child Left Behind said we want to have evaluation. The Alabama 
Reading Initiative is done on a constant evaluative basis. If 
children are falling behind in any technique of reading, the 
testing will tell you what their weakness is, and you can give 
them added emphasis in the area in which they are weak.
    You visited some of Alabama's ARI schools not long after 
you took office. Do you see potential in that for around the 
country to actually help teachers in the techniques that are 
scientifically proven to get better results?
    Secretary Spellings. Absolutely, Senator, and that is why 
we need, as I said in my statement, to do for math what we have 
done for reading. We do have a sound and solid research base. 
We know how to do this work, and we need to share it more 
broadly. Alabama is one of the Nation's leaders in embracing 
those concepts and tenets, and you have the results to show for 
it, I would say, and we need to do that, have that same 
philosophy with mathematics as well.
    Senator Sessions. Well, Alabama is doing that, and let me 
tell you a few things that they are doing that will change the 
way we teach math and science in the State. They are trained 
for 2 weeks in the summers, two different summers, but just 2 
weeks each summer. All training is grade and subject specific, 
tailored to what they will be teaching in that math or science 
class in that grade. Equipment and materials are provided to 
the teachers in the form of kits that arrive every 6 weeks.
    My grandmother used to be a teacher, and I found she was 
quite a good teacher, I think, in these scrapbooks. I thought 
they were her personal scrapbooks, but I have come to realize 
those were clippings from newspaper articles and things that 
she utilized to teach with. That is all she had as resources to 
bring to class. So teachers have to find their own materials 
today for the most part. You are expected to go in a classroom 
in an elementary school. You put up your bulletin boards, you 
do all this from your own personal stocks, and you can buy some 
of it. But the point is, if teaching is done in a scientific 
way and the teacher can obtain materials that actually help 
them convey complex concepts to the students, I think that 
would be helpful.
    Then you have specialists that come to those classes and 
support the teachers. Lessons are taught in small-group 
discussions with real life problems, as you mentioned earlier, 
and results so far are showing up to a 20 point gain on the 
percentile ratings of the Stanford Achievement Test for those 
schools that have become Alabama Math, Science, Technology 
Schools. done the math and science. I have been so excited 
about that. We are not going to remove every teacher that is 
not the greatest scientist in the world. They are going to 
remain in that classroom teaching as best they can. If we can 
help them with our technology and equipment and some basic 
training, do you not think that would be a good investment for 
us?
    Secretary Spellings. I absolutely do, and I think that is 
what we are talking about here with the President's 
Competitiveness Initiative.
    Senator Sessions. We are certainly looking in those classes 
now, and test scores do expose classes that are failing and not 
making progress, and maybe these kind of ideas, as we study 
them around the country--and I hope that you will study them, 
because if they are as good as initial results show--sometimes 
you hear reports that say they are better than they really are, 
but good objective analysis of these kind of programs can help 
us a lot, I believe.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman.
    Welcome, Madam Secretary. I appreciate you being here, and 
your commitment, along with the President's initiative on 
competition. I also enjoyed the article about you and your 
daughters that ran in the papers sometime ago.
    Secretary Spellings. They are still not speaking to me.
    [Laughter.]
    Senator Clinton. I know. You will live through it and so 
will they. I can attest to that.
    [Laughter.]
    Yesterday, my staff tole me about a blog entry in the 
Education Gadfly, which is run by the conservative Fordham 
Foundation. Checker Finn and Michael Petrilli, who are known to 
a lot of us who have been involved in education reform for 
years, wrote an entry with the heading, and I quote, ``Bush's 
first and second-term policies don't harmonize.'' The piece 
basically argues that No Child Left Behind is actually 
undermining an agenda to improve math and science achievement 
by creating an inventive for States to hae low standards. Let 
me just read what they said in brief.
    ``No Child Left Behind creates perverse incentives for 
States to set low standards and dumbed down tests. In a review 
of State math standards that the Fordham Foundation published 
last year, a panel of mathematicians found that only six States 
had standards that were clear, coherent, and relatively 
rigorous. Of these, just three, California, Massachusetts''--
Senator Kennedy--``and New Mexico, set passing scores on their 
8th grade tests anywhere near the gold standard of proficiency 
as determined by the NAEP. These flaws in No Child Left Behind 
undermine the President's big new idea, training an additional 
70,000 teachers to lead AP courses in high-poverty high 
schools, because if nobody gets challenged in math beyond a 
middling notion of proficiency, how can they succeed in 
rigorous AP classes?''
    The piece goes on to say that: As long as school 
accountability is pegged to low levels of achievement, these 
other efforts will be mainly symbolic. Incentives work, and the 
vast majority of schools will continue to teach precisely what 
is needed to pass the test that acutally count.
    This comes on the heel of the publication of the NAEP 
results, which certainly raised a lot of issues in the minds of 
many because NAEP, once again, showed that our proficiency 
levels were not sufficient, but at the same time we have all 
these States reporting these miraculous increases in student 
achievement. Because we do not have national standards and 
because we have left the decisionmaking about standards to the 
States, many States have slowly, but inexorably, lowered their 
standards, and everybody knows that. No State wants to be 
embarrassed and so States give in to the pressure, and the 
standards go down.
    I would ask, will the Department be recommending changes 
when we reauthorize No Child Left Behind, I think next year, to 
help us improve math and science education, and to try to deal 
with this problem of States dumbing down and lowering 
standards?
    Secretary Spellings. I think that is a good question. I 
have not seen that particular blog, but, obviously, clearly, I 
disagree with it. I think in No Child Left Behind we tried to 
harmonize the important role of those who are the primary 
investors in public education and State and local governments, 
with shining the bright light of the National Assessment of 
Educational Progress, the NAEP, on those. We have, I think, two 
tools here, a NAEP yardstick that exposes--I mean we now know 
who has the highest standards, who does not. I have talked to 
chiefs, I have talked to Governors, those tools are working. 
They are challenging their policies at the local level because 
of those two instruments.
    I think programs like Advanced Placement and International 
Baccalaureate that are widely regarded as high-quality, high 
standards, rigorous, and equivalent to college-level work will 
help us raise the bar, provide that additional rigor. I think 
that is one tool. But I do think it is important for us to 
harmonize and recognize the role of the Federal Government 
versus States.
    I would also say that even so, even with the low standards, 
if you will, we still have major, major work to do, especially 
with minority kids, on passage of State tests. And the NAEP 
proficiency standard is a very, very, tough, high standard, and 
there is discrepancy between State proficiency definitions and 
the NAEP, no doubt about it.
    Senator Clinton. Madam Secretary, I would love to work with 
you, as I am sure many of us on the committee would, to try to 
further harmonize and to put even more incentives into the law 
so that States do not back pedal.
    Let me, if I can, just ask you another quick question. Last 
year the Department considered creating a nationwide database 
for every postsecondary student in the country, including 
detailed personally identifiable information like Social 
Security numbers, enrollment, attainment, and financial aid 
information. I support efforts to promote an accurate, useful, 
higher education accountability system, but I expressed concern 
at the time in a letter to your predecessor, Secretary Paige, 
that the proposal would risk violations of students' privacy 
and increase the bureaucratic burdens imposed on higher 
education institutions. Last year the Department requested the 
authority to create a national database of students. Congress 
did not grant that authority, and the Department eventually 
dropped the proposal.
    However, it has come to my attention that last week you 
attended a conference in Florida with the National Governors 
Association, where you spoke about why States should care about 
student data systems including longitudinal data. And we all 
agree with that. You have to have data. You cannot track what 
people are doing or accomplishing unless you have those tools. 
Charles Miller, the Chairman of your Commission on the Future 
of Higher Education, also has stressed the need for a rich 
database. I guess I would like an update on what the 
Department's efforts really are. Are you continuing to develop 
a national database that contains detailed personally 
identifiable information on every postsecondary student in the 
country?
    Secretary Spellings. No, we are not, Senator. Thank you for 
asking that question. I have tasked this Higher Education 
Commission, that you spoke of, with looking at how best to use 
and collect information about higher education, and we are not 
currently--they have not made any recommendations yet. I have 
given them to August to do their work.
    But I would also let you know, and I know you do know, that 
we have a giant database at the Department of Education called 
IPEDS, the Integrated Post Secondary Data System, and we can 
tell ia virtually everything you want to know about a first-
time, full-time degree-seeking nontransfer student, which is 
fewer than half of our students these days. How are we to best 
use this $80 billion investment in higher education, that we do 
at the Department of Education, to some good end without 
knowing who we are serving, to what degree and how well? I 
think that is our policy challenge. How we do that, I do not 
know yet.
    Senator Clinton. It is something that is, obviously, of 
great concern, because there are issues of consent, there are 
issues of identification by name instead of by some assigned 
number, there are issues of educational performance. There are 
transcripts and financial data. So, obviously, this is a matter 
of some concern to many of my constituents and the institutions 
that I represent. I hope that we can continue to try to figure 
out what is appropriate and what is not. Thank you.
    Secretary Spellings. I agree. Thank you.
    The Chairman. I really appreciate your being here today, 
and I appreciate the succinct answers that you have given, a 
lot of good information. I know that Senator Kennedy and I both 
have some additional questions that we would like to ask. 
Several of the questions that I would ask, I will just submit 
to you in writing, so that I can get the answers to them 
because it will play a role in what we are going to be doing in 
future legislation, and I will have a few concluding statements 
here.
    Senator Kennedy.
    Senator Kennedy. Thank you.
    I appreciate my friend from Alabama reminding us about the 
things we ought to be learning about from your State, and we 
will look forward to learning from them. We are very proud that 
Massachusetts is the number one State in the country in 4th 
grade and 8th grade in reading,and tied for first in math. Part 
of it----
    Senator Sessions. Senator Kennedy, I believe that 
Massachusetts has really driven the thing financially, the 
reading initiative even greater than Alabama has, so you 
deserve a lot of credit for that.
    Senator Kennedy. I appreciate it. We do not want to keep 
complimenting each other.
    [Laughter.]
    We like the rigor of your challenge on it.
    It is basically, I believe, a combination of essential 
reforms, by the fact that prior to the time the No Child Left 
Behind was in effect, we had a major review on education policy 
there, and the State has initiated a number of different kinds 
of provisions that worked in concert with the No Child Left 
Behind. We still have a long way to go.
    I just want to ask, Madam Secretary, you are probably 
familiar with the Glenn Commission report. I was on the 
commission. John Glenn was the driving factor and force, and he 
had an excellent staff. Many of the recommendations that came 
out in the National Academy of Sciences report, comes from that 
commission, and a number of the aspects of the commission were 
actually brought in for the No Child Left Behind program, and 
you might just get a--you have got a lot of reading, and we 
never do as much as we should--but you will see the 
recommendations that were in here in terms of math and science.
    We tried to include a number of those in the math and 
science partnership in the No Child Left Behind. It talked 
about the isolation of math teachers, science teachers, talked 
about partnerships, mentoring, and a number of other 
recommendations. We actually tried to include much of that in 
the math and science partnership in the No Child Left Behind, 
and also provisions in the teaching quality provisions. Those 
aspects have been virtually frozen in terms of finances. I do 
not want to take the time here about the funding levels, but 
those have actually been frozen. And the science partnership 
with the National Science Foundation, under the Administration, 
had a 27 percent cut.
    We found that that science partnership had a lot of useful 
recommendations and suggestions. I would just be interested in 
how to balance those out, why you made the judgments over the 
time not to increase teacher quality and the math-science 
partnership program, and why you think these other kinds of 
parts are going to achieve what you want, why those are not 
better, because that, I think, is at least something that we 
had been attempting to do in the No Child Left Behind 
provisions, and working with the National Science Foundation, 
and were pretty consistent. We want to certainly support those 
programs that are working, and the ones that are making a 
difference. We do not want to be supporting them if they are 
not. But I am interested in how you reached the conclusions 
that you did in terms of the budget, in not seeing the 
importance of increases in terms of this. Do you want to make a 
comment now or let us know later?
    Secretary Spellings. I certainly will look at it. I think 
that is our shared challenge as to how we allocate resources. I 
would say that funds for that partnership are up from 12.5 
million in 2002 to $182 million in 2006, so it is not that it 
has not been a priority. It certainly has been, of this 
Congress and of the Administration.
    Senator Kennedy. On the math-science partnerships, is that 
what--I have 179 million in 2005 and 182 in 2006.
    Secretary Spellings. Right, that is what I have.
    Senator Kennedy. And Title II of No Child Left Behind is 
1.48 billion in 2005, and 2006 it is 1.45 billion, and the 
math-science partnership in the NSF has gone from 79 million in 
2005 down to 46 million this year in terms of requests, so that 
has been a dramatic kind of reduction.
    I would like to just know what is your assessment of what 
was working well in those and what was not.
    Secretary Spellings. I will be glad to do that, thank you.
    Senator Kennedy. Thank you.
    The Chairman. Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. My apologies. We 
have got more Secretaries on the Hill testifying on the budget 
today than we have rooms to house everybody.
    Madam Secretary, welcome. I think it is safe to say that 
all categories have deficiencies in math and science. 
Nevertheless, I believe they are particularly low as it relates 
to African-Americans. Historically Black Colleges and 
Universities are shining examples of institutions that really 
defy expectations for African-Americans in math, science, and 
engineering. While there are only 105 historically black 
colleges in the country, 11 of those reside in North Carolina, 
five public and six private. Their output of African-Americans 
that graduated in math and science is extraordinarily high. 
Some statistics: 38 percent of all bachelor's degrees and 27 
percent of all master's degrees in math for African-Americans 
nationwide come out of historically black colleges. Thirty-
eight percent of all bachelor's degrees and 24 percent of all 
master's degrees, 17 percent of all Ph.D.'s in biological 
science's for African-Americans nationwide are awarded by 
historically black colleges. Forty percent of all bachelor's 
degrees in physical sciences for African-Americans nationwide 
are awarded by historically black colleges.
    North Carolina A&T University, known for their engineering 
school, probably is the strongest in the country, and the 
College of Engineering has been the Nation's leader at 
producing African-American engineers, and also the leading 
producer of African-American women engineers at the bachelor 
level, and it is currently the third largest of African-
American master's level engineers after Georgia Tech and Johns 
Hopkins, which I think is a remarkable accomplishment.
    They make an incredible contribution to the pipeline of 
African-American students involved in math, science and 
engineering as majors and as professionals. How might we both 
work together to make sure that HBCUs are even more effective 
and more of a tool for us to reach a population that truly does 
not rise to the level that the rest of the population does?
    Secretary Spellings. Senator, I think that is a great 
comment, and as you know, you and I will be visiting one of 
those little gems next week, and that is exactly the question I 
intend to ask them, what can we learn of them about how to make 
sure that we have more of this sort of activity going on?
    I was in New Orleans a couple of weeks ago at Xavier. They 
have the distinction of leading the country in African-American 
health professionals, pharmacists, and those who pursue the 
medical profession. They tell me there is high expectations and 
a focus on those priorities. They do not try to have 400 
different kinds of course offerings. They focus on what they do 
well, and they do a lot of it. So I think that is part of it, 
but I intend to ask them that question when we are there next 
week.
    Senator Burr. One last question. In 2005, IBM, recognizing 
the shortage of teachers in math and science specifically, 
started a very innovative program within IBM, challenging for 
100 IBM employees to be certified for K through 12 education, 
and those 100 are targeted to come out of New York and North 
Carolina where IBM has a big presence.
    What else can we do to challenge other companies like IBM 
to come up with the same type of creative, innovative ways for 
their employees to help us with deficiencies that we have in 
the skills we need to teach our children?
    Secretary Spellings. That is exactly what the President has 
in mind through the Adjunct Teacher Initiative, and I 
understand that IBM is about to try to provide even more 
teachers.
    Intel, the President was just in Albuquerque last week, and 
they are providing professionals into the schools. So I think 
through the Adjunct Teacher Corps we can seed and support more 
of that sort of initiative around the country.
    Senator Burr. I thank you for the work of the Education 
Department.
    Mr. Chairman, I thank you for not only the hearing today, 
but also the vigilance that this committee holds as it relates 
to education policy, and we are a partner with the Department 
to make this successful. Thank you.
    The Chairman. Thank you.
    I think this has been an extremely helpful hearing. I do 
need to make one slight correction. I did hear a comment 
earlier in one of the questionings, that we had cut 12-7/10ths 
billion dollars from Pell grants. There was not a dime cut from 
Pell grants. We did make some savings by eliminating some 
corporate subsidies, and that provided some money to put into 
the math and science emphasis that we did for college.
    I once made some comments, as Senator Isakson did, about 
professors in college needing to be in the classroom once every 
5 years, or once every 10 years, and put that on my list of 
things not to bring up again for a while.
    [Laughter.]
    Got several things on that list, but maybe their time will 
come.
    I do know that, as you mentioned in your testimony, that a 
lot of education is expectations, expectations not just by the 
teacher, but expectations by the parents and expectations by 
the communities. There are some grand examples out there. The 
St. Labre Indian School has a reading program, and typically 
they had a lot of problem with literacy and dropouts and all 
kinds of things. In a single year they were able to raise kids 
in 4th grade from 38 percent being at grade level to 95 percent 
being at grade level. In 2nd grade it was even more dramatic. 
They went from 15 percent to 100 percent at grade level. I 
asked what the core of the program was, and they said, ``high 
expectations.''
    I am also interested and appreciative of your Commission on 
Future Higher Education, and know that we need to concentrate 
on emphasizing to kids the need to go there, and am fascinated 
by a program at, I think it is San Diego State, where they take 
4th graders from the inner city, bus them to the college, show 
them the college, take a picture in front of the main building, 
and that is sent to the kid's parents, and on the bottom of it, 
it says, ``Future San Diego State Student.'' When anybody 
visits the house, that is usually on the mantle or some other 
prominent place in the house. And they have a very high rate of 
kids who go on to college. Expectations, early.
    When my kids were in elementary school, the principal at 
that particular school instituted some new math, which, of 
course, shook everybody up because that was kind of a by-word 
of my generation. It was based on binary math, and so to get 
over some of the tension that would be caused by that, he had 
the parents come to the school and showed us what they would be 
teaching. It made a dramatic difference to the parents. There 
were many who had not done well in math, who understood in a 
single evening some of these math concepts, and were very sold 
on the kids doing it. This was a 2nd grade program. One of the 
things that happened at the end of the year was that the kids 
would go to McDonald's, and they would all order off of the 
menu, and all the kids in the class would keep track of what 
the total bill was going to be before sales tax--that is always 
another problem--almost every kid in the class was able to add 
it in their head and get it right. Math can be done.
    Incidentally, one of the things they do in that kind of 
math is they also add from left to right, so that you are 
dealing with the biggest numbers first, which would be a good 
thing here in Washington, probably.
    [Laughter.]
    They discontinued the program though, because it was a boom 
town and a lot of kids were coming in and out, and they were 
not sure all the kids could keep up. It was a huge 
disappointment to me.
    I would remind everybody that in most of the questions here 
today we talked about high school. Next week we are having a 
high school roundtable as a follow up to this hearing, and I 
would mention that IBM will be a part of that high school 
roundtable as well.
    I would also mention that we do have a Web site, and people 
that might be listening, if they have ideas on how we can 
improve education, we are certainly open to that, and would 
appreciate them utilizing that Web site. It is one of the ways 
that we collect ideas so that we can hopefully get it right.
    I would like to congratulate the Secretary on all of her 
efforts and the way that she gets it right. You do provide a 
lot of leadership for us, and a very forceful advocacy, and I 
do appreciate your high expectations of what you are working 
on, as well as this committee, and your ability to answer the 
questions. You have really stimulated a lot of ideas today. 
Thank you for being here.
    Secretary Spellings. Thank you, Senator.
    [The prepared statement of Secretary Spellings follows:]

                Prepared Statement of Margaret Spellings

    Mr. Chairman, Senator Kennedy, and members of the committee, thank 
you for the opportunity to speak with you today about the importance of 
education to maintaining our global leadership, and the President's 
proposed serious and innovative reforms that will prepare our children 
to become leaders themselves.

The Challenge: To Innovate Education

    America has long been innovation's home. When faced with a 
challenge, we invent the answer: from the first telephone to global 
satellite communications; from the first computer to the World Wide 
Web; from the Wright Brothers to Neil Armstrong. To Americans, 
innovation means much more than the latest gadget. It means creating a 
more productive, prosperous, mobile and healthy society. Innovation 
fuels our way of life and improves our quality of life. And its 
wellspring is education.
    Throughout his Administration, President Bush has made innovation 
and education top priorities. The President worked with you, other 
members of this committee and your colleagues in the House, to pass the 
most far-reaching education reform in decades, the No Child Left Behind 
Act (NCLB). NCLB has brought high standards and accountability to 
public schools and sparked a mathematics and reading revival in the 
early grades.
    While the United States is leading the world in science and 
technology and making strong reforms to its education system, the rest 
of the world is not standing still. America no longer holds the sole 
patent on innovation. Inspired by our example, countries such as China, 
India and South Korea have invested heavily in education, technology, 
and research and development. America now has billions of competitors 
throughout the world, challenging us to set our sights even higher.
    Our educational leadership has been challenged as well, with many 
developed nations' students outperforming ours in international tests, 
particularly in math and science, an ominous sign for many American 
schools. These test scores are linked to a lack of challenging 
coursework, an ominous sign for many American schools. The impact may 
be felt well into the future. According to some estimates, America's 
share of the world's science and engineering doctorates is predicted to 
fall to 15 percent by 2010.
    This global challenge requires bold action and leadership. America 
has done it before. Following the Soviet Union's 1957 launch of 
Sputnik, the world's first satellite, Congress passed and President 
Eisenhower signed into law the National Defense Education Act of 1958 
(NDEA). NDEA encouraged more college and university students to pursue 
degrees in engineering and it brought the public and private sectors 
together as partners to capture the interest, imagination and 
dedication of American students. And it worked. Within a decade, the 
number of science and engineering doctorates awarded in the United 
States annually had tripled, accounting for more than half the world's 
total by 1970.
    Today, America faces challenges more difficult and complex than a 
single streaking satellite. The spread of freedom is spurring 
technological innovation and global competition at a pace never before 
seen. This trend makes it increasingly important that our economy be 
more flexible and responsive, to make sure that we continue to lead in 
innovation and technological development and to make sure we have a 
workforce that has the skill sets necessary to do so.
    Education is the gateway to opportunity and the foundation of a 
knowledge-based, innovation-driven economy. Employers are increasingly 
looking for workers who have analytical, technical and problem-solving 
skills.
    We have to run to keep up. A high school diploma, once desirable, 
is now essential, and, increasingly, insufficient. About 90 percent of 
the fastest-growing occupations of the future will generally require 
some postsecondary education. It is therefore unacceptable that among 
all 9th graders, about three in ten do not graduate on time; or that 
for black and Hispanic students the figure is about five in ten. If 
current trends continue, by 2012, over 40 percent of factory jobs will 
require postsecondary education, according to the National Association 
of Manufacturers. And yet, almost half of our 17-year-olds do not have 
the basic understanding of math needed to qualify for a production 
associate's job at a modern auto plant.
    Improving education is critical not only to America's economic 
security, but also to our national security. Today, not one but 3,000 
satellites circle the earth. U.S. soldiers use the latest 
communications and surveillance technology to fight the global war on 
terrorism. Advanced math skills are used to identify and undermine 
terrorist networks. Government and the private sector engineer new ways 
to protect lives and infrastructure from harm. And the effort to spread 
freedom to other nations and cultures demands speakers fluent in 
languages such as Arabic, Farsi, Chinese, and Russian. Addressing these 
challenges will advance opportunity and entrepreneurship at home and 
promote democracy and understanding abroad.
    Rigorous instruction, high standards and accountability are helping 
to raise achievement levels among American students, particularly in 
the early grades. As all students work to achieve proficiency in math 
and reading by 2014, an innovative education reform effort is needed.
    America's civic, political and business leaders agree: To sustain 
our quality and way of life, we must act now. And President Bush is 
leading the charge by proposing investments and reforms through a 
number of key initiatives that I would like to outline today.

The Answer: President Bush's Education Agenda

    President Bush's answer to America's challenge begins with the 
American Competitiveness Initiative. This multi-agency Initiative will 
commit $5.9 billion in fiscal year 2007, and more than $137 billion 
over the next 10 years, to strengthen education, promote research and 
development and encourage entrepreneurship. In the research arena, it 
will increase our investment in physical science and engineering 
research, the results of which will fuel technological innovation for 
decades to come. In the education arena, the initiative will bring 
together leaders from the public sector, private sector and education 
community to better prepare our students for the 21st century. The 
initiative will place a greater emphasis on math instruction from the 
earliest grade levels. It will ensure that high schools offer more 
rigorous coursework, including Advanced Placement and International 
Baccalaureate courses in math, science and critical-need foreign 
languages. It will inform teachers of the most effective, research-
based approaches to teaching math. It will encourage professionals in 
those fields to become teachers themselves. And it will evaluate all 
federally funded math and science education programs to ensure the most 
effective use of the taxpayers' dollars.
    The President's High School Reform initiative will help ensure that 
a diploma becomes a ticket to success for all graduates, whether they 
enter the workforce or go on to higher education. It will bring high 
standards and accountability to high schools by aligning their academic 
goals and performance with the No Child Left Behind Act. Through 
assessments and targeted interventions, it will help educators raise 
achievement levels and close the achievement gap. It will also help 
alleviate the dropout problem by focusing more attention on at-risk 
students struggling to reach grade level in reading or math.
    Finally, the President's National Security Language Initiative, 
announced on January 5, 2006, will help more American students master 
critical-need foreign languages to advance global competitiveness and 
national security. This joint project, in collaboration with the 
Department of State, Department of Defense and the Director of National 
Intelligence, will train teachers and aid students in those fields.

The Challenge: Knowledge of Math and Science

    In this changed world, knowledge of math and science is paramount. 
In the words of BusinessWeek, ``It's a magnificent time to know math.'' 
``Math entrepreneurs'' are translating the world into numbers--which 
translates into big salaries. According to the Bureau of Labor 
Statistics, new and replacement job openings requiring science, 
engineering or technical training will increase by more than 24 
percent, to 6.3 million, between 2004 and 2014.
    Of all of the recommendations contained in the National Academies' 
report, Rising Above the Gathering Storm, the highest priority is to 
vastly improve K-12 math and science education. Schools must help 
students develop the skills they will need to compete and succeed in 
higher education and the workforce, which are increasingly connected in 
this changed world. All Americans must be technically adept and 
numerically literate--regardless of their chosen occupation--so that 
they can make informed decisions and enjoy advancement in their 
careers. And this technically and numerically literate population must 
also yield additional practitioners of math, science, and engineering 
to meet the needs of academia and industry well into the future. 
Industry must do its part to ensure that career opportunities provided 
to those with training in math, science and engineering are as stable 
and financially rewarding as other jobs, such as medicine, law and 
finance.
    We clearly have a long way to go. High school test scores in math 
have barely budged since the early 1970s. And less than half of high 
school graduates in 2005 were ready for college-level math and science 
coursework, according to ACT.
    In 1983, the landmark A Nation at Risk report recommended that high 
school students be required to take a minimum of 3 years of math and 3 
years of science to graduate. Yet today, only 22 States and the 
District of Columbia require at least this amount to graduate in the 
class of 2006. Even fewer require high school exit exams (which are 
often administered in 10th or 11th grade, leading many employers and 
universities to discount the results). Just one State--Alabama--calls 
for current students to take 4 years of both science and math to 
graduate.
    A major part of the answer is teacher training. When we compare the 
U.S. education system with that of the top performing countries, we 
find several significant differences, most notably that a much lower 
proportion of U.S. math and science teachers actually have a degree in 
the area in which they are teaching. Because our elementary schools 
employ generalist teachers who are required to teach all academic 
subjects, most have degrees in education and have completed little or 
no coursework in math or science. Three out of four 4th-grade math and 
science teachers in the United States do not have a specialization in 
those subjects. And students from low-income communities are far less 
likely than their more affluent peers to have teachers certified in the 
subject they teach. With two-thirds of our math and science teachers 
expected to retire by 2010, we have a challenge to produce new teachers 
to fill that gap, but we also have an opportunity to change the way in 
which new teachers are trained so that future teachers will have 
greater content knowledge in math and science.
    Strengthening math and science standards is an economic imperative, 
for the Nation and for individual citizens. According to Department 
statistics, students who take advanced math courses in high school 
(such as trigonometry, precalculus and calculus) are far more likely to 
earn a bachelor's degree. Additionally, students from low-income 
families who acquire strong math skills by the 8th grade are 10 times 
more likely to finish college than peers of the same socioeconomic 
background who do not.
    Still, old attitudes about math die hard. A recent survey 
commissioned by the Raytheon Company found that 84 percent of middle 
school students would rather clean their rooms, take out the garbage or 
go to the dentist than do their math homework. According to the 
Business Roundtable, just 5 percent of parents say they would ``try to 
persuade their child toward careers in science, technology, mathematics 
or engineering.'' Many people still view math and science as ``nerdy'' 
subjects with little relevance to the ``real world.'' Like it or not, 
that world has changed forever.

The Answer: American Competitiveness Initiative

    President Bush's American Competitiveness Initiative seeks to 
improve learning and instruction in mathematics and science. The 
Department of Education's proposals within this Initiative are as 
follows:

    <bullet> National Math Panel: Based on the influential National 
Reading Panel, the National Math Panel would convene experts to 
empirically evaluate the effectiveness of various approaches to 
teaching math, creating a research base to improve instructional 
methods for teachers. It would lay the groundwork for the Math Now 
program for grades K-7 to prepare every student to take and pass 
algebra;
    <bullet> Math Now for Elementary School Students: Like the 
successful and popular Reading First program, Math Now for Elementary 
School Students would promote promising, research-based practices in 
mathematics instruction and prepare students for more rigorous math 
coursework in middle and high school;
    <bullet> Math Now for Middle School Students: Similar to the 
current Striving Readers Initiative, Math Now for Middle School 
Students would diagnose students' deficiencies in math proficiency and 
provide intensive and systematic instruction to enable them to take and 
pass algebra;
    <bullet> Advanced Placement-International Baccalaureate (AP-IB) 
Incentive Program: The AP-IB Incentive Program would train 70,000 
additional teachers to lead AP-IB math and science courses. It would 
increase the number of students taking AP-IB tests to 1.5 million over 
the next 5 years with the goal of tripling the number of passing test-
takers to approximately 700,000;
    <bullet> Adjunct Teacher Corps: The Adjunct Teacher Corps would 
provide funding to match contributions from States and the private 
sector to train 30,000 qualified math and science professionals to 
become adjunct high school teachers by 2015; and
    <bullet> Evaluating the Effectiveness of Federal Science, 
Technology, Engineering and Math (STEM) programs: An administration-
wide effort would be undertaken to determine which Federal education 
programs are most effective in raising achievement in math and science, 
which deserve more funding and which should be consolidated to save 
taxpayer money. The initiative would also align these education 
programs with the goals and aims of the No Child Left Behind Act. 
According to the Government Accountability Office, thirteen agencies 
reported spending $2.8 billion on 207 education programs in fiscal year 
2004. About half of the programs dedicated to math and science received 
less than $1 million in funding, with most targeted to postsecondary 
education.
    <bullet> Including Science Assessments in NCLB: NCLB requires every 
State to develop and administer science assessments once in each of 
three grade spans by the 2007-08 school year, and including these 
assessments in the accountability system will ensure students are 
learning the necessary content and skills to be successful in the 21st 
century workforce.

Other Math and Science Initiatives

    <bullet> Academic Competitiveness grants and SMART Grant Program: 
This higher education grant program was a key component of the Higher 
Education Reconciliation Act. I know that members of this committee, 
particularly Chairman Enzi and Senator Frist, worked very hard to get 
this important program into the legislation that was just signed by the 
President.
    <bullet> This program will build on the success of the Pell Grant 
program and benefit more than 500,000 students in need.
        <bullet> Academic Competitiveness grants will provide increased 
        funds for low-income students who take a rigorous academic 
        curriculum in high school. Grants in the amount of $750 will be 
        awarded to qualified first-year college students who completed 
        a rigorous high school program; grants in the amount of $1,300 
        will be awarded to second-year students who completed a 
        rigorous program and who maintain a 3.0 average in college.
        <bullet> SMART grants will go to college juniors and seniors 
        studying math, science or critical-need foreign languages who 
        also maintain a 3.0 GPA. This will encourage more students to 
        go into fields that improve America's security and 
        competitiveness.
    <bullet> Mathematics and Science Partnerships: This program 
supports the American Competitiveness Initiative by providing State 
formula grants to help improve students' academic achievement in 
rigorous math and science courses. It also assists teachers by 
integrating proven, research-based teaching methods into the curricula.
    <bullet> Expanded Teacher Loan Forgiveness: This popular program 
offers up to $17,500 (up from $5,000) in loan forgiveness for highly 
qualified math, science and special education teachers serving 
challenging, low-income schools and communities.

The Challenge: Accelerating Our Schools' Progress

    Innovating and improving America's schools will not occur 
overnight. It took time for eight other developed nations to surpass 
America's high school graduation rate among adults aged 25 to 34; and 
it will take time for the United States to regain its leadership. We 
must start by accelerating our progress.
    A comprehensive problem demands a comprehensive solution, extending 
from kindergarten through high school graduation. The good news is that 
educators and policymakers are learning more and more about what works. 
A half-century ago, the United States turned the threat of Soviet 
competition into proof of our ability to improve our schools and 
quality of life. Just 4 years ago, the United States turned a growing 
achievement gap into the bipartisan No Child Left Behind Act.
    The law set a course for proficiency for all students in the core 
subjects of reading and math by the year 2014. Students in grades 3 
through 8 are now learning under high standards. Teachers are using 
proven instructional methods in reading. Schools are being held 
accountable for results. Parents have more information and choices. And 
States have more flexibility to spend Federal K-12 education resources, 
which have increased by 41 percent since 2001.
    The early results are in. Across the country, academic achievement 
has risen significantly in the earliest grades, with math scores at 
all-time highs, including among African-American and Hispanic students. 
In the last 2 years, the number of 4th graders who learned their 
fundamental math skills increased by 127,000 according to Department 
data. Long-term trends show that more reading progress was made among 
9-year-olds over the last 5 years than in the previous 28 years 
combined. Meanwhile, according to the Nation's Report Card, the 
achievement gaps in reading and math between white and African-American 
9-year-olds and between white and Hispanic 9-year-olds are at all-time 
lows. Educators use terms like ``amazing,'' ``stunning'' and 
``remarkable'' to describe the progress on long-term NAEP.
    No Child Left Behind has set the goal of every child achieving, but 
the States and schools themselves have done the heavy lifting to 
implement curriculum standards and assessment protocols that they will 
use to meet these standards. For the first time, all 50 States have 
unique accountability plans in place, with real consequences attached. 
The results can be seen in schools like Maryland's North Glen 
Elementary. In 2003, just 57 percent of North Glen's students were 
proficient in reading, while 46 percent were proficient in math. Those 
numbers have skyrocketed to 82 percent and 84 percent, respectively.
    Another example is Charles L. Gideons Elementary School in Atlanta. 
The number of its students meeting Georgia's standards in reading has 
increased by 23 percentage points since 2003. For math the news is even 
better: a 34 percentage-point improvement during the same period. The 
National Math Panel will examine schools like this one that have made 
significant progress to determine ``what worked'' in improving 
mathematics education and performance. If we better understand what 
worked at these model schools, we can then use programs like the new 
Math Now program to disseminate these principles and practices to 
teachers across the country.
    A districtwide success occurred in Garden Grove, California. Three-
fourths of the Garden Grove Unified School District's students do not 
speak English. Nearly 60 percent are from low-income families. 
Nevertheless, all but two of the district's 67 schools met or exceeded 
their Adequate Yearly Progress goals under the law.
    The No Child Left Behind Act was designed to improve achievement. 
But it has also shown us what is achievable as a Nation. Educators, 
administrators and public officials are working together, united behind 
a worthy goal. Now it's time to apply the act's successful principles 
to our Nation's high schools.
    There is not a moment to waste. Governors and business leaders are 
united in calling for urgent reform. Every year approximately 1 million 
students drop out of high school, costing the Nation more than $260 
billion dollars in lost wages, taxes and productivity over the 
students' lifetimes. A high school graduate can expect to earn about 
$275,000 more over the course of his or her lifetime than a student who 
doesn't finish high school; a college graduate with a bachelor's degree 
can expect to earn about $1 million more. Dropouts are also 3\1/2\ 
times more likely to be arrested, according to reports. A key goal of 
the President's High School Reform Initiative is to address the 
academic needs of at-risk students so that they stay in school, 
improving their quality of life and that of their fellow Americans.

The Answer: The President's High School Reform Initiative

    The President's High School Reform Initiative would hold high 
schools accountable for providing high-quality education to all 
students. And it would help educators implement strategies to meet the 
needs of at-risk high school students. The proposed program would make 
formula grants to States to support:

    <bullet> The development, implementation and evaluation of targeted 
interventions designed to improve the academic performance of students 
most at risk of failing to meet State academic standards; and
    <bullet> Expanded high school assessments that would assist 
educators in increasing accountability and meeting the needs of at-risk 
students.
    Interventions would be designed to increase the achievement of high 
school students; eliminate achievement gaps between students from 
different ethnic and racial groups and income levels; and help ensure 
that students graduate with the education, skills and knowledge 
necessary to succeed in postsecondary education and in the technology-
based global economy.
    A key strategy would be the development of individual performance 
plans for students entering high school, using 8th grade assessment 
data in consultation with parents, teachers and counselors. Specific 
interventions could include programs that combine rigorous academic 
courses with vocational and technical training, research-based dropout 
prevention activities, and the use of technology-based assessment 
systems to closely monitor student progress. In addition, programs that 
identify at-risk middle school students for assistance would help 
prepare them to succeed in high school and enter postsecondary 
education. This includes college preparation and awareness activities 
for students from low-income families.
    The President's proposal also would require States to develop and 
implement reading and mathematics assessments in two additional grade 
levels in high school, building on the current NCLB requirement for 
testing once in grades 10-12. The new assessments would inform 
strategies to strengthen school accountability and meet the needs of 
at-risk students.

Additional Support

    <bullet> Striving Readers: First funded in 2005, this program would 
be expanded significantly to reach more secondary students reading 
below grade level, which puts them at risk of dropping out. Students 
would benefit from research-based interventions coupled with rigorous 
evaluations. Schools would benefit from activities and programs 
designed to improve the overall quality of literacy instruction across 
the entire curriculum.

The Challenge: Promoting Freedom and Understanding

    America faces a severe shortage of people who speak languages that 
are critical to its national security and global competitiveness:

    <bullet> According to the Center for Applied Linguistics, less than 
\1/4\ of public elementary schools report teaching foreign languages, 
even though a child's early years are the best years in which to learn 
a new language.
    <bullet> Less than 1 percent of American high school students study 
Arabic, Chinese, Farsi, Japanese, Korean, Russian or Urdu--combined.
    <bullet> Less than 8 percent of undergraduates in American 
universities take foreign language courses, and less than 2 percent 
study abroad in any given year.

    While only 44 percent of U.S. high school students were studying a 
foreign language in 2002, learning a second or even a third foreign 
language is compulsory for students in the European Union, China, 
Thailand and elsewhere.
    More than 200 million children in China study English. By 
comparison, only about 24,000 elementary and secondary school children 
in the United States study Chinese. Many students in other nations 
begin learning another language before they're even 10 years old. They 
will have an edge over monolingual Americans and others in developing 
new relationships and business connections in countries other than 
their own.

The Answer: The President's National Security Language Initiative

    Critical-need foreign language skills are necessary to advance the 
twin goals of national security and global competitiveness. Together 
with the Department of State, Department of Defense and the Director of 
National Intelligence, the Department of Education proposes to offer 
grants and training for teachers under President Bush's National 
Security Language Initiative.
    The Initiative would increase the number of Americans who speak and 
teach foreign languages, with an emphasis on critical-need languages. 
It will strengthen and refocus the Foreign Language Assistance Program, 
and will initially enable 24 school districts across the country to 
create partnerships with colleges and universities to develop critical-
need language programs. Among the critical-need languages targeted 
under the initiative are Arabic, Chinese, Korean, Japanese, and 
Russian, as well as languages in the Indic, Iranian and Turkic 
families.
    The National Security Language Initiative will also provide funding 
to create a Language Teacher Corps, with the goal of having 1,000 new 
critical foreign language teachers in U.S. schools by the end of the 
decade. And it will enable the creation of an ``e-Learning Language 
Clearinghouse'' and expanded Teacher-to-Teacher seminars to assist 
foreign language teachers anytime, anywhere.

Conclusion

    Our schools helped make the 20th century the ``American Century.'' 
The 21st century remains to be claimed. But Americans have never backed 
down from a challenge. This changing world offers another opportunity 
for Americans to shine, and the President's American Competitiveness 
Initiative and the rest of his education agenda will help set the 
course.
    America's schools have made great progress in improving academic 
achievement in the early grades. But like athletes or musicians, 
children of all ages must work hard each and every day if they wish to 
compete, perform and succeed, and their schools must show them the way. 
The President's education agenda will help prepare the students of 
today to become the successful leaders--the pioneers, discoverers and 
Nobel Prize winners--of the next American Century.
    I look forward to working with Congress on implementing these bold 
initiatives.
    Thank you for the opportunity to testify this morning. I am happy 
to answer any questions you have.

    The Chairman. That concludes the hearing.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Ensign

    I would like to thank Secretary Spellings for testifying 
before the Senate Health, Education, Labor, and Pensions 
Committee this morning to discuss President Bush's ``American 
Competitiveness Initiative.'' I would also like to thank 
Chairman Enzi for holding a hearing on this very important 
issue.
    As Chairman of the Senate Republican High Tech Task Force, 
I know very well the important roles that competitiveness and 
innovation play in maintaining our position in the world 
economy. We must be proactive in continuing to nurture 
competitiveness and innovation--traits that have historically 
fueled our economy and our success.
    Every year I meet with the CEO's of Fortune 500 Technology 
companies. They are gravely concerned about the education of 
our Nation's children, especially in the areas of math, 
science, and engineering. If we fail to engage our students in 
these subjects, and if our students therefore fail to excel, we 
are laying the groundwork for an American economy that is left 
behind in the global landscape.
    In an effort to address these challenges, I have introduced 
S. 2109, the National Innovation Act, along with Senator 
Lieberman. This legislation is based on the recommendations of 
the National Innovation Initiative and builds on and expands 
existing programs within the National Science Foundation (NSF). 
This includes expansion of both the Graduate Research 
Fellowship Program and the Graduate Education and Research 
Traineeship Program. My legislation encourages additional 
higher education institutions to develop Professional Science 
Master's Degree Programs to increase the number of highly 
skilled graduates entering the science and technology 
workforce. My legislation also strengthens the Federal 
Governments' commitment to science education by expanding the 
Science, Mathematics, Engineering, and Technology Talent 
expansion program. The Tech Talent expansion program encourages 
American universities to increase the number of graduates with 
degrees in mathematics and science. Finally, the National 
Innovation Act provides funding for the Director of NSF to 
award grants to local educational agencies to implement 
innovation-based experiential learning in 500 secondary schools 
and 500 elementary or middle schools.
    The President's American Competitiveness Initiative 
compliments many of the proposals put forth in the National 
Innovation Act. The focus on mathematics education programs in 
elementary and middle schools is crucial. In fact, I am working 
on legislation that would create a math and science middle 
school program that is very similar to the Math Now for Middle 
School Students proposal. It is imperative that we keep our 
students on par with other leading industrial nations in math 
and science education.
    I was particularly pleased to see the Department's new 
Adjunct Teacher Corps proposal. With teacher shortages in key 
subject areas reaching critical heights in many areas, it is 
necessary to find new avenues for professionals to enter into 
the teaching profession. I believe that a retired physicist, 
with some additional training in pedagogy, could make an 
excellent high school physics teacher.
    The most compelling piece of the President's initiative was 
the America's Opportunity Scholarships for Kids proposal. I 
have always supported student vouchers as a way of injecting 
competition into our education system. An article by Maurice 
McTigue was brought to my attention a few years ago that 
explained the decentralization of the New Zealand government. 
As part of that transformation, each school, whether it was 
public, private, or parochial, received a per pupil amount of 
funding from the government. Some adjustments in funding were 
made for children with disabilities and a few other factors. In 
the first few years of the program, public school attendance 
did drop by 2-3 percentage points. However, since that time, 
public school participation is at a higher level than ever 
before. More importantly, student performance improved 
significantly. Why? Competition.
    The Federal Government has taken on the role of assisting 
those schools that are the most in need of assistance. Vouchers 
go a step further and help those children who are most in need 
of a helping hand to succeed in school. The President's 
proposal does just that.
    It is my hope that the President's American Competitiveness 
Initiative will provide the spark needed to begin serious 
consideration of math and science education programs as well as 
reignite the innovation and competitiveness that must be at the 
heart of our education systems. I believe that it is important 
to build on what the Federal Government is already doing and to 
fill in the gaps from there. During this time of extreme budget 
restraints it is important to review and monitor the programs 
we currently have and expand slowly and appropriately from 
there.
    I look forward to working with you, Secretary Spellings, 
and other members of the Senate to move this important agenda 
forward.

                   Prepared Statement of Senator Dodd

    Thank you, Mr. Chairman. Secretary Spellings, welcome, and 
thank you for coming today to talk about the President's 
American Competitiveness Initiative. I look forward to hearing 
more about this program as well as asking additional questions 
about how it might work.
    Last fall, the National Academy of Sciences released a 
report entitled, Rising Above the Gathering Storm. This report 
examined America's competitiveness in the global economy 
specifically as it relates to math and science. What the 
Academy found was startling.
    In a 2003 international assessment of 15-year-olds, 
American students placed 16th in reading, 19th in science, and 
24th in math. On the 2005 National Assessment of Educational 
Progress (NAEP) in math, only 36 percent of 4th graders and 30 
percent of 8th graders performed at or above proficiency. The 
vast majority of students in our high schools will never take 
an advanced science or mathematics course. About 30 percent of 
high school math students have teachers who did not major in 
math in college or who are not certified to teach it. And, at 
the college level, fewer than half of undergraduates entering 
college in the 1990's with a science or engineering major 
complete those degrees.
    China graduates twice as many students as the United States 
with bachelors degrees and has six times as many graduates 
majoring in engineering. In 2001, India graduated almost a 
million more students from college than the United States did. 
And researchers in Japan, Taiwan and South Korea now account 
for more than \1/4\ of all U.S. industrial patents awarded each 
year. We need to turn this tide.
    When the Academy released their findings, they recommended 
specific steps Congress could take to ensure the pre-eminence 
of America's science and technology expertise.
    Just a few weeks ago, Senators Bingaman and Alexander 
introduced legislation in the Senate designed to carry out the 
report's recommendations--the Protecting America's Competitive 
Edge (PACE) Acts. I am proud to be an original cosponsor of 
this bill. Educationally, PACE's primary focus is to find young 
men and women who are interested in science and math, provide 
them with highly qualified teachers to help them pursue their 
interests, and assist them in making their dreams of a math/
science degree at a 4-year university come true.
    In many ways, the American Competitiveness Initiative would 
appear to share the same goals as the PACE Acts. I am not sure, 
however, that it will achieve the same ends.
    I applaud your efforts to review the existing research in 
math instruction and your desire to disseminate these 
practices. I also applaud your efforts to increase access to 
advanced placement courses, which effectively translates to 
access to a rigorous curriculum. I do, however, question the 
instruction of an adjunct high school faculty corps.
    It appears that members of this corps could circumvent the 
teacher certification process, resulting in teachers who are 
not highly qualified teaching in our schools. I am also 
concerned that, unlike PACE, there is no emphasis on the 
professional development of existing teachers. In addition, I 
am concerned that at a time when NCLB is woefully underfunded, 
an additional measure will be added to the adequate yearly 
progress calculation of NCLB. I propose that first we provide 
our schools with what is needed to successfully implement NCLB 
as it currently stands.
    I realize that the point of today's hearing is to discuss 
the President's math-science initiative but I would be remiss 
if I did not take the time to reflect on the President's most 
recent budget proposal. At a time when more is demanded of our 
schools, especially in relation to NCLB, the education budget 
of this country is woefully underfunded once again.
    This year, 42 education programs are eliminated in the 
President's budget. These eliminations include programs that 
prepare low-income kids for college, provide drug and alcohol 
education in elementary and secondary schools, and provide 
funding for the Perkins Vocational and Technical Education 
Program the largest source of Federal funding for high schools.
    Aside from eliminations, NCLB is underfunded by $15.4 
billion and Title I, NCLB's signature program for low-income 
students, is underfunded by $12.3 billion.
    IDEA is funded at just 17 percent of the cost of providing 
services--1 percent less than was provided last year and less 
than half of the 40 percent full funding we set as our goal 31 
years ago. Once again, school boards will be passing these 
costs on to taxpayers.
    After-school initiatives will be level-funded, leaving 
behind 2 million students who could and should be served. And, 
at a time when we are talking about access to the next 
generation of scholars and scientists, the maximum Pell Grant 
is frozen for the 4th year in a row at $4,050.
    In addition, I find it egregious that amidst these harsh 
cuts, the Administration has introduced a $100 million voucher 
program. I ask you, in a time of accountability, will these 
schools be required to educate all children, administer subject 
matter tests to measure proficiency, and be subject to 
penalties if their students don't perform well?
    Mrs. Secretary, this budget is insufficiently committed to 
helping students. If we fail to adequately fund No Child Left 
Behind, if we wipe out a whole host of education programs, our 
States, our localities, our school districts, local taxpayers, 
and most importantly, our children, will suffer.
    Budgets are about priorities. What priority could be more 
important than ensuring the future of our children by providing 
them with a first class education? How do we get to a first 
class math and science education if we don't have resources to 
fund the basics? Thank you.

                  Prepared Statement of Senator Murray

    Secretary Spellings, thank you for coming today to talk 
with us about the role of education in global competitiveness. 
Growing up in a small town in Washington, my parents always 
admonished me to clean my plate at dinnertime. There were 
starving children in India and China who would happily change 
places with me, they often said. Well, the message from today's 
parents to their children is that they had better attend to 
their homework after dinner, because children in India and 
China are doing just that. Times certainly have changed and 
America can no longer take for granted its role as a world 
leader in science and technology. Accordingly, I share the 
President's commitment to strengthening our educational 
competencies in math and science. Many of the elements of the 
American Competitiveness Initiative, including efforts to 
increase the number of math and science teachers and grow the 
number of Advanced Placement programs, are part of the 
Protecting America's Competitive Edge through Education and 
Research Act of 2006, which I cosponsored.
    That being said, I want to stress that I view the 
components of the PACE Education Act as a complement to, and 
not a substitution for, the other Federal education investments 
we have made over the past 40 years. While science and math 
competence are undoubtedly a critical piece of what our 
students need to compete globally, it cannot come at the 
expense of training our Nation's teaching workforce, helping 
disadvantaged students succeed academically, and ensuring that 
our high school students graduate and have the financial means 
to attend postsecondary education. Global competition demands 
that we do more, not less, to help our students succeed. 
President Bush released his budget request earlier this week. 
As a document of our values and priorities, the Federal budget 
should reflect our commitment to educating the Nation's youth. 
Yet the President's fiscal year 2007 budget request proposes 
the deepest cuts to Federal education funding in the 26-year 
history of the Department, which leads me to question the 
priorities and values of this Administration. Actions speak 
louder than words. A few examples:
    Even though provisions of No Child Left Behind require our 
teachers to be highly qualified, the President has elected not 
to increase any of the established programs that help current 
and future teachers meet these requirements. His fiscal year 
2007 budget proposes level-funding, among others, the Teacher 
Incentive Fund, Troops-to-Teachers and the Transition to 
Teaching programs. In addition, he has requested eliminating 
the Higher Education Act's Teacher Quality Enhancement Program. 
While developing state-of-the-art math and science curricula 
and attracting high-quality teachers are important, so too is 
ensuring that our teachers have the pedagogical tools to 
effectively engage students in the classroom. A Nobel Prize 
winner may be the world's foremost expert in quantum physics, 
but that doesn't necessarily mean he can adequately and 
appropriately convey his knowledge in a way that is beneficial 
for student learning. Teacher training is an important 
component of global preparedness, and I am disheartened to see 
this underfunded in the President's budget.
    To compete globally, we must ensure that all our students 
have the tools and skills to succeed in the world economy. 
Preparation for this challenge begins in the early years. That 
is why programs such as Head Start, which prepares low-income 
children to enter kindergarten ready to learn, are so critical. 
Yet the President's budget does not include a funding increase 
for this important program. Choosing to forego a cost-of-living 
adjustment, his budget effectively ensures that fewer children 
will receive Head Start's valuable education, health and 
nutrition services. The President's failure to dedicate Federal 
resources to close the achievement gap abounds in his budget 
request, from inadequate support for title I grants to 
shortchanging after-school programs to scaling back Federal 
support to special education. This is not the comprehensive 
approach we should be taking to prepare our Nation's youth.
    Sixty percent of new jobs in the 21st century will require 
a college education. Given that only one out of three members 
of the U.S. workforce has attended a postsecondary institution, 
our commitment to education must extend into colleges and 
universities. One of the best ways we can open the door to 
college is to help America's teenagers graduate from high 
school. With our national high school graduation rate hovering 
at an abysmal 69 percent, I believe we must empower schools to 
offer the best possible support for students and teachers. That 
is why I introduced my Pathways for all Students to Succeed 
Act. The PASS Act would provide resources to target academic 
tutoring and counseling to students most in need of help. With 
3,000 secondary students dropping out of school each day, we 
must redouble our efforts to make our high schools places where 
all students can learn.
    In addition to boosting high school graduation rates, we 
must assist students in the transition from high school to 
college by providing financial resources to facilitate access 
to higher education. Yet recently the Federal Government cut 
$12.7 billion from student loans that help low- and middle-
income families pay for college. This decision, during a year 
in which tuition and fees increased by 7.1 percent for 4-year 
public universities and 5.9 percent for private universities, 
does not reflect our national priorities. In the same vein, the 
value the President purports to place on higher education is 
not reflected in his budget, which level-funds the Pell Grant 
program for the 4th year in a row.
    The Bush Administration rightly is concerned about our 
children's math and science proficiencies. But American 
competitiveness demands a more comprehensive approach to 
education, one that necessitates an obligation to train our 
Nation's teachers, close the achievement gap, and promote 
educational opportunities throughout the K-16 pipeline. Today's 
children should be reminded that their counterparts in China 
and India are making quick gains in math and science. But our 
students need more than warnings about finishing their 
homework. They also need the Federal Government to support 
their efforts and provide opportunities for them to learn and 
progress academically. Our Nation and our children deserve 
nothing less.

      Response to Questions of Senator Enzi by Secretary Spellings

    Question 1. The National Foreign Language Initiative announced by 
the President on January 5, 2006 involves cooperation between the U.S. 
Department of State and the Department of Education. Could you please 
describe the Department of Education's role in this initiative, how 
grants such as the Foreign Language Assistance Program (FLAP) will be 
focused, and the steps you will be taking to attract teachers to this 
high need area?
    Answer 1. The Department of Education worked with the Departments 
of State and Defense and the Director of National Intelligence in 
creating the National Language Security Initiative to coordinate 
critical foreign language instruction among agencies and ensure that 
each agency is maximizing resources to create a pool of critical 
language speakers. The Department of Education's role in the National 
Security Language Initiative is to improve the K-16 pipeline so that 
more students are studying and becoming proficient in critical needs 
languages. The Department's current Foreign Language Assistance Program 
will prioritize those grantees who focus on critical needs languages, 
especially those programs that start before high school and can provide 
an articulated program of critical needs foreign language instruction. 
In addition, the Advancing America Through Foreign Language 
Partnerships program, for which we have requested $24 million in the 
fiscal year 2007 budget, will connect institutions of higher education 
with school districts to create critical needs foreign language 
programs that lead students to proficiency in these languages. This 
model, which was started by the Department of Defense, shows promise in 
linking colleges, which already have critical needs language programs, 
with schools that would like to start these programs.
    In addition, the Department of Education has placed a priority on 
training teachers to teach critical needs languages. The Department has 
proposed $5 million for the Language Teacher Corps, which would train 
college graduates with critical foreign language skills to become 
teachers in the classroom. In addition, the Department proposes $3 
million for the Teacher-to-Teacher initiative to fund intensive summer 
training sessions for foreign language teachers.

    Question 2. Career and technical education programs have 
demonstrated their success in keeping students in high school. To 
maintain America's competitiveness, it is important that more high 
school students graduate with the knowledge and skills necessary to 
provide them with an increased number of high quality opportunities 
after graduation. In that capacity, Perkins is part of the 
competitiveness pipeline. What suggestions would you make so that we 
clearly connect the Perkins to the American Competitiveness Initiative?
    Answer 2. If the Congress reauthorizes the Perkins Act, it should 
support strong career and technical education (CTE) programs that are 
linked to a rigorous academic curriculum and to postsecondary education 
programs that lead to a postsecondary degree or certificate. We know 
that all high school students need to learn rigorous academic content 
and skills, whether they expect to enter the workforce immediately 
after graduation or to pursue postsecondary education. Our economy 
increasingly demands workers who have a high level of knowledge and 
skills, and the fastest-growing jobs require some education beyond high 
school. Most high-paying, high-demand, technical occupations now 
require completion of some training or education beyond high school, 
and most workers will need to upgrade their skills throughout their 
lifetime. However, less than 10 percent of vocational students scored 
at or above proficiency in 2000 National Assessment of Education 
Program (NAEP) in mathematics and only 29 percent scored at or above 
proficiency in the 1998 NAEP for reading.
    As another mechanism for ensuring that vocational education 
students are prepared to compete in the global economy, any new Perkins 
legislation should also incorporate strong accountability requirements. 
In order to ensure that States implement strong accountability measures 
and that Federal funds are directed to activities that will improve 
student achievement and graduation rates for CTE students, the Perkins 
program should require that States' accountability systems use valid 
and reliable measures of the core indicators of performance at both the 
secondary and postsecondary levels, and apply these measures to all 
categories of students served by CTE programs. Furthermore, States 
should not be permitted to use their existing indicators of performance 
to measure the achievement of CTE students, when those indicators would 
otherwise be in conflict with statutory requirements. Allowing a State 
to use its current measures of performance where these measures are 
weak, invalid, or unreliable would perpetuate a weak accountability 
system that is unable to track, or create incentives for, real 
improvements in performance.

    Question 3. It seems that we are on the right track with including 
science as a part of testing in NCLB, but is testing enough? There is a 
lack of support, especially at the elementary level, for science in the 
Department's 2007 budget. Do you have additional ideas that would help 
get more science into elementary classrooms?
    Answer 3. Yes, NCLB requires every State to develop and administer 
science assessments once in each of three grade spans by the 2007-08 
school year. States are well on their way to completing this 
requirement. Our proposal would include these assessments in the 
accountability system to ensure students are learning the necessary 
content and skills to be successful in the 21st century workforce. As 
I've said many times, what gets tested gets taught. By including 
science in the accountability program, teachers, principals, students, 
and parents will focus on ensuring students learn this content.

    Question 4. In the future, just about everyone will need 
postsecondary education in order to get a good job. To be prepared for 
postsecondary, students need to graduate from high school on time and 
without the need for remediation. Please describe some models that 
support successful transitions from high school to postsecondary 
education and how you plan to spread the word of their successes in 
order to strengthen high schools across the Nation.
    Answer 4. There are numerous studies that suggest different 
programs and approaches can be effective in assisting low-income and 
disadvantaged students make the transition from high school to college, 
but there has not been enough rigorous, scientifically-based research 
to determine the best methods for helping all students prepare for and 
succeed in college. Our current, disjointed approach has not served all 
students well. That is why we believe a targeted and comprehensive 
effort is needed. We believe our proposed $1.5 billion High School 
Reform initiative will do a better job of improving high school 
education and preparing students to succeed in college. Our High School 
Reform initiative would focus resources at the State and local levels, 
with a strong emphasis on scientifically-based research to determine 
what works. The initiative also deepens the national knowledge base on 
what is effective in improving high schools and secondary school 
student achievement by supporting and disseminating scientifically 
based research on specific interventions that have promise for 
improving outcomes.
    Over the last decade, we have made great strides in raising the 
educational aspirations of young people. More than 90 percent of 
students who were in 10th grade in 2002, for example, reported that 
they expected to earn a postsecondary credential. Our challenge now is 
ensuring that students leave high school with the preparation they will 
need to realize these ambitious goals. The Department's fiscal year 
2007 budget request includes a comprehensive set of initiatives to 
address that challenge.
    Completing a rigorous academic program in high school is essential 
to making a successful transition to postsecondary education. The 
Toolbox Revisited: Paths to Degree Completion from High School through 
College, a recently released Department study, concluded that 
completing academically challenging course work in high school, 
including Advanced Placement (AP) courses and mathematics coursework 
beyond the level of algebra II, dramatically increased the likelihood 
of a student earning a bachelor's degree. Courses Count: Preparing 
Students for Postsecondary Success, a report issued by ACT last year, 
also found that completing at least one mathematics course beyond 
algebra II, as well as biology, chemistry, and physics, improved 
student success in the first year of college.
    However, not all high schools offer the rigorous coursework 
students need for postsecondary success. Toolbox Revisited found that 
nearly half of African-American students and 55 percent of Hispanic 
students attended high schools that did not even offer calculus. A 
recent National Center for Education Statistics survey found that one-
third of U.S. public high schools do not offer any AP courses. 
Moreover, even when high schools do offer a full complement of rigorous 
courses, too many students are unable to access them because they enter 
high school with reading and mathematical skills that are significantly 
below grade level.
    High schools also can help more students transition successfully to 
postsecondary education by providing comprehensive college transition 
services and supports, such as tutoring and academic enrichment 
activities, and counseling and information about college options, 
testing and admission requirements, and financial aid. These are 
particularly important for students whose parents have never attended 
college, but are useful for all students. Unfortunately, too often 
these services are offered as part of an ``add-on'' outreach program 
that serves only a small number of students, rather than delivered 
comprehensively to all students and integrated into the daily work of 
the school.
    The President's $1.5 billion High School Reform initiative would 
help States better prepare students for postsecondary education by 
supporting the development and implementation of interventions to equip 
all high school students with the rigorous academic preparation and 
transition supports they need to enter and succeed in higher education. 
A key strategy would be the use of 8th-grade assessment data, in 
consultation with parents, teachers, and counselors, to develop 
individual performance plans for students entering high school. The 
President's initiative also would give States the flexibility to target 
Federal resources to address the most pressing needs of their high 
schools. While some States, for example, may wish to use Federal 
dollars to improve their vocational education programs, others may 
decide that improving the quality of their algebra II and chemistry 
offerings are a greater priority. Similarly, instead of distributing 
Federal dollars for college transition services and supports in 
discretionary grants that serve small numbers of students, the 
President's proposal would enable States to use these resources to 
support more comprehensive strategies that serve all students, giving 
particular attention to the needs of at-risk students and those whose 
parents never attended college.
    The proposal also would require all States to develop and implement 
reading and mathematics assessments at two additional grades in high 
school, building on the current NCLB requirement for annual testing 
once in grades 10-12. The new assessments would strengthen school 
accountability and help school administrators, teachers, and parents 
keep students on track for graduation and success in postsecondary 
education.
    The President is proposing to complement the High School Reform 
initiative with another $1.1 billion \1\ in targeted investments in 
fiscal year 2007 to improve the academic preparation of high school 
students for postsecondary success. These investments include:
---------------------------------------------------------------------------
    \1\ I was unable to determine what portion of the $850 million was 
reserved for AC grants, and what was reserved for SMART. These numbers 
need to be revised to include only the funds allocated for the AC 
grants.

    <bullet> $122 million for the AP program, including a $90 million 
increase to support a multi-year initiative to expand access to AP 
coursework by training an additional 70,000 teachers to deliver AP 
math, science, and critical language courses, while helping an 
additional 700,000 students pass the AP/IB exams in these subjects;
    <bullet> $25 million for the Adjunct Teacher Corps to create 
opportunities for qualified professionals from outside the K-12 
educational system to teach secondary school courses in the core 
academic subjects, with an emphasis on mathematics and science;

    Question 5. With reconciliation, we have dealt with the mandatory 
programs in the Higher Education Act, but we have yet to deal with the 
discretionary programs many of which focus on supporting low-income and 
minority students. What recommendations do you have for us as we move 
the remainder of the higher education reauthorization forward?
    Answer 5. Our priorities in higher education are to improve and 
increase access and strengthen institutions. The administration's 
reauthorization proposals include a number of initiatives to increase 
access to postsecondary education for low-income students and support 
institutions. These changes include: redirecting funding for high-
school related programs in the Higher Education Programs to the 
proposed High School Reform initiative; simplifying the grant 
application process for Tribally Controlled Colleges and Universities 
and Tribally Controlled Postsecondary Vocational and Technical 
Institutions; and continuing the President's commitment to graduate 
fellowships and strengthening American education in the areas of 
foreign language and international studies through the National Foreign 
Language Initiative.
    We also think a strong effort needs to be made to bring 
transparency and accountability to the accreditation process. For such 
an extensive process, very little useful information is provided to 
students and families at the end of the process. Better defined 
standards and significantly improved data reporting needs to be a 
priority of the reauthorization of the HEA.

    Question 6a. High school students need a better understanding of 
the requirements to enter college and how to afford it. What is the 
role of the Commission on the Future of Higher Education as related to 
the alignment of high school to postsecondary education? In what way 
will the commission be addressing issues such as the transition from 
high school to postsecondary institutions and reducing the need for 
remediation?
    Answer 6a. The Commission was established by the Secretary of 
Education to begin a national dialogue about the future of higher 
education in this country. The purpose of this Commission is to 
consider how best to improve our system of higher education to ensure 
that our graduates are well prepared to meet our future workforce needs 
and to participate fully in the changing economy. The Commission brings 
together members of the business, academic, and non-profit communities 
to address two main issues: the effectiveness of institutions of higher 
education in preparing our students to compete in the new global 
economy and ensuring that college is affordable and accessible. These 
issues are directly related to the transition from high school to 
postsecondary education.

    Question 6b. In what way will the Commission be addressing issues 
such as the transition from high school to postsecondary institutions 
and reducing the need for remediation?
    Answer 6b. Questions surrounding the transition to postsecondary 
education and reducing the need for remediation are a part of the 
overall discussions the Commission is undertaking. There have been two 
meetings to discuss college preparation and access issues, and the 
Commission is tasked with developing a national strategy on this issue. 
The Commission will submit its final report with specific findings and 
recommendations by August 1, 2006.

    Question 7. You have said that you hope States will put more pre-
algebra into their elementary schools so that 8th graders will be able 
to complete algebra before entering high school. Could you please 
describe how Math Now aims to achieve this goal and how this can 
support No Child Left Behind's goal of proficiency by 2014?
    Answer 7. The National Math Panel will be advising the Department 
on key practices, principles, and components of sound math instruction 
(similar to those found in Reading First) for the proposed Math Now for 
Elementary School Students program. The Panel will also be recommending 
practices, principles, and components to guide intervention through the 
proposed Math Now for Middle School Students program to help prepare 
every student to take and pass algebra. The goal of preparing every 
student to take and pass algebra in order to be better prepared for 
rigorous middle and high school coursework strongly supports NCLB's 
2014 proficiency goal.

    Question 8. With the increasing emphasis of scientifically based 
research in education, how can you assist States in learning what 
interventions work, especially at the high school level, to increase 
achievement? What can be done to better disseminate this information so 
teachers can take advantage of best practices within their classrooms?
    Answer 8. The Department of Education provides information to 
teachers and others about promising education practices and 
disseminates it widely on the Agency's Web site (www.ed.gov) and 
through ED Pubs. The Department has been encouraging and financially 
supporting more scientifically-based research about various education 
interventions. The What Works Clearinghouse was established in 2002 by 
the Department of Education's Institute of Education Sciences to 
provide educators, policymakers and the public with a central, 
independent and trusted source of scientific evidence of what works in 
education. Each WWC Report examines the effects of replicable programs, 
practices, products, and policies that are designed to improve student 
outcomes within a topic area. The review process for WWC Evidence 
Reports is thorough, scientific, and objective. The studies reviewed 
for each topic are determined by an exhaustive search of published and 
unpublished research literature, including submissions from program and 
product developers.

    Question 9. Our competitiveness relies as much on rural students 
succeeding as it does with urban students. In September 2004, the 
General Accountability Office released a study that I requested, 
together with Senators Conrad, Collins, and Johnson, suggesting the 
Department of Education could do more to provide specific assistance to 
rural districts to help them comply with the No Child Left Behind Act. 
What plans do you have to follow up on the recommendations of this 
report, beyond what's already been done?
    Answer 9. On January 11, 2005, the Department provided a response 
to the recommendations made in the Government Accountability Office 
(GAO) report, ``No Child Left Behind Act: Additional Assistance and 
Research on Effective Strategies Would Help Small Rural Districts'' 
(GAO-04-909). There were two recommendations in this report, both of 
which the Department agreed to implement. Since that time, the 
Department has taken steps to improve communications, outreach, and 
assistance to the rural community to help them to comply with the No 
Child Left Behind Act. Listed below are excerpts from the 
recommendations given by GAO at the time, along with the action steps 
taken by the Department.
    Recommendation (1): ``. . . provide additional assistance to States 
on approaches small rural districts can use to implement student 
proficiency provisions and teacher qualification requirements, 
including the application of new flexibilities.''
    The Department has implemented this recommendation. The 
Department's Rural Education Task Force has continued to work with key 
program staff to examine ways to improve the Department's outreach to 
rural school districts. Secretary Spellings has re-invigorated the task 
force, realigning its membership to reflect the organization structure 
that she has put in place. The current Task Force has regularly 
scheduled meetings and has increased its outreach to organizations and 
educators interested in rural education. In December 2005, for example, 
the Task Force Chairman, Acting Assistant Secretary Beto Gonzalez, and 
the Task Force Executive Director, Linda Hall, met with the rural forum 
of the Council of Chief State Schools Officers to discuss issues 
relating to No Child Left Behind and its implementation in the rural 
education community.
    In support of the Rural Education Task Force, the Department has 
established a Center for Rural Education. The Center's Director, Dr. 
William Smith and staff members have held several meetings with members 
of the rural education community, including focus groups with rural 
teachers, administrators, and organizations.
    Recommendation (2): ``. . . focus on effective scientifically based 
methods to improve student performance, and . . . conduct studies on 
the services that can help small rural districts meet student 
proficiency provisions in light of the unique challenges that these 
districts face.''
    As stated in the original response, the National Research and 
Development Center on Rural Education has received an award to conduct 
rigorous research to identify effective education practices for 
increasing student achievement and improving the teaching and learning 
environment for rural students. Secretary Spellings recognized the 
strong tie between this research effort and the focus on rural issues 
within the Department. To ensure that these initiatives remain 
coordinated, she included the newly confirmed Commissioner of the 
National Center for Education Statistics on the Rural Education Task 
Force.

    Question 10. A number of reports by various groups, in business, 
Government, and private research entities, place a great deal of 
emphasis on technology literacy in the growing economy. As you know, No 
Child Left Behind authorizes funding designed to help schools integrate 
educational technology to improve student performance. In recent years, 
this has received declining support from the administration. If 
Congress were to eliminate funding for this program, as suggested by 
the President, are there competing programs that would be able to 
support the improved technology literacy of students?
    Answer 10. Districts seeking funds to integrate technology into 
teaching and learning can use other Federal program funds to accomplish 
this goal. Integrating technology in the classroom through these means, 
rather than through a separate authority, will help and ensure that 
students are exposed to technology in all areas of education and 
encourage better coordination across programs, rather than making 
technology a separate, somewhat isolated concern.
    Activities to support technology-based professional development as 
well as technology activities related to school-based reform efforts 
are allowable activities under the State Grants for Innovative Programs 
authority. For example, a district may wish to spend their State Grants 
for Innovative Programs funds to integrate technology into a reading 
curriculum, in order to increase student achievement in reading as well 
as expose students to useful technological skills. Also, programs such 
as Improving Teacher Quality State Grants and Title I Grants to Local 
Educational Agencies support many local, school- or district-based 
activities that make use of technology in student instruction or 
teacher professional development.
    Further, flexibility provisions under the NCLB Act permit 
districts, if they choose to do so, to transfer or consolidate certain 
Federal funds in order to carry out activities, including technology 
programs, that meet specific local needs. For example, under the State 
and Local Transferability Act, most LEAs may transfer up to 50 percent 
of their formula allocations under certain State formula grant programs 
to their allocations under: (1) any of the other authorized programs; 
or (2) Part A of Title I. Therefore, an LEA that wants to implement 
technology programs may transfer funds from its allocations received 
under the authorized programs to its State Grants for Innovative 
Programs allocation, without having to go through a separate grant 
application process.

    Question 11. Under the American Competitiveness Initiative, there 
are a number of proposals to increase math and science skills for our 
Nation's students. Would you share with us a description on advancing 
the education of students with disabilities and how to increase their 
access to postsecondary education and to be competitive in the global 
economy?

    [Editor's Note: The response to this question was not available at 
time of print.]

     Response to Questions of Senator Ensign by Secretary Spellings

    Question 1. In your statement you mentioned that 13 different 
Federal Agencies are currently overseeing 207 different math and 
science programs that are funded by the Federal Government. While I 
agree that these programs most likely represent, as you said, a lot of 
flowers and very few weeds, I would like to know what is being done to 
coordinate the math and science programs that are funded by the Federal 
Government. Is it anticipated that the proposed National Math Panel 
would take a role in the coordination of these programs? Is there an 
entity that determines the overall effectiveness of the 207 current 
Federal programs?
    Answer 1. The recently signed Deficit Reduction Act of 2005 
established the Academic Competitiveness Council. This Council is to be 
chaired by the Secretary of Education with membership from the agencies 
responsible for managing existing Federal programs that promote math 
and science. The Academic Competitiveness Council will map out the 
current landscape of Federal math and science education programs to 
determine where programs are duplicative and where there might be 
opportunities for new programs to address currently unmet needs. The 
Council will also set principles for guiding and metrics for measuring 
programs on an ongoing basis. For elementary and secondary programs, we 
want to extend agencywide the principles of No Child Left Behind--using 
the best available evidence to help those who need it most, providing 
flexibility and local control, and using assessment to measure the 
increase in student achievement. It is our intention to convene this 
Council as soon as practicable.

    Question 2. Many proposals related to math and science programs 
mention the importance of teacher access to curriculum, especially 
scientifically-based and effective curriculum. What role is the 
Eisenhower National Clearinghouse playing in this effort? Are teachers 
using this source to access classroom curriculum? What could be done to 
make the efforts of the Clearinghouse more widespread?
    Answer 2. The Eisenhower National Clearinghouse (ENC) for 
Mathematics and Science Education was not reauthorized through NCLB. 
This administration did not seek its reauthorization nor did it request 
funding. When the authorization for it expired, Congress extended the 
Clearinghouse with appropriations language through fiscal year 2004. 
The Clearinghouse was discontinued by the Department on September 29, 
2005. While many teachers and administrators actively used the 
Clearinghouse as a resource, the administration was not comfortable 
disseminating resources that were not necessarily based upon proven 
scientific evidence.
    Note: The ENC materials are still available on the Internet as a 
subscription service that offers math and science resources on 
professional development, lesson plans, web resources, and other 
topics. The Web site, goENC.com, is run by ENC Learning Inc. at Ohio 
State University.

    Question 3. While I believe that parental involvement is the most 
important factor of student success, a successful and well-qualified 
teacher in the classroom is a close second. What initiatives are 
currently underway in the Department of Education to enhance science 
and math teachers' knowledge and preparation for the classroom? What 
kind of partnership could be fostered within the proposed Adjunct 
Teacher Corps with businesses like IBM and Intel that are already 
encouraging employees to get their teaching certificate?
    Answer 3. This initiative will be consistent with the principles of 
NCLB's highly qualified teacher requirement--teachers must know the 
subject they teach. The Department already provides $2.8 billion 
through Title II the Improving Teacher Quality State Grants program. 
This new initiative would create an Adjunct Teacher Corps that would 
draw on the skills of well-qualified individuals outside the public 
education system to meet specialized teaching needs in secondary 
schools. The initiative would concentrate on helping schools find 
experienced professionals who would be able to provide real-world 
applications for some abstract mathematical concepts being taught in 
the classroom and, in some cases, provide individuals to teach 
temporarily in hard-to-fill positions.
    Funds would be used to make competitive grants to partnerships of 
school districts and States (or of school districts and appropriate 
public or private institutions) to create opportunities for 
professionals with subject-matter expertise to teach secondary-school 
courses in core academic subjects, particularly in mathematics and 
science. Adjunct teachers might teach one or more courses on the school 
site on a part-time basis, teach full-time in secondary schools while 
on leave from their jobs, or teach courses that would be available 
online or through other distance learning arrangements.

    Question 4. How does the Department envision the America's 
Opportunity Scholarships for Kids fitting into the American 
Competitiveness Initiative? How would they help breed competitiveness 
in our Nation's schools and benefit our children most in need of 
assistance with academic assistance?
    Answer 4. America's Opportunity Scholarships for Kids builds on the 
commitment made under NCLB to help all students reach academic 
proficiency by 2013-14 by empowering parents with educational choices, 
enabling students to participate in high quality educational 
environments, and making schools more competitive by strengthening 
schools in need of improvement. The program recognizes that students 
who attend schools undergoing restructuring should have educational 
options, and to that end, the program provides scholarships for these 
students to transfer to a public or private school of their choice or 
receive supplemental educational services (SES).
    The American Competitiveness Initiative is a comprehensive strategy 
to keep the United States the most innovative country in the world by 
helping struggling students gain math expertise, expanding students' 
access to AP and IB courses, encouraging more individuals to become 
math and science teachers, and improving research into math education.
    While America's Opportunity Scholarships for Kids and the American 
Competitiveness Initiative are distinct programs, they both contribute 
to competitiveness in our schools and benefit children who need 
academic assistance.
    We know that increased choices for parents mean better academic 
results for students. Students who are scholarship recipients will be 
able to participate in a higher quality educational program than they 
would have in absence of the scholarships, and because of that, these 
students are more likely to succeed in the critical areas of math and 
science. We expect these students to be better prepared for their 
postsecondary years.
    As students transfer to new public or private schools or take 
advantage of SES, this will also breed competitiveness among schools 
undergoing restructuring. As the restructuring schools lose students, 
they face an incentive to revamp their curriculum and strengthen the 
quality of their teachers. Thus, America's Opportunity Scholarships for 
Kids may also enhance the academic program offered at schools 
undergoing restructuring and encourage these schools to implement 
rigorous math and science courses, as well as recruit teachers who are 
highly qualified to teach in these subjects.

     Response to Questions of Senator Hatch by Secretary Spellings

    Question 1. Thank you for testifying before the committee, 
Secretary Spellings, and laying out the President's ambitious education 
initiative. Recently, Utah has been laying out its own plans to 
increase emphasis on math and science and to prepare students to 
compete globally. This effort is being led by our Governor, the Utah 
State Legislature, and the Utah State Board of Education. Specific to 
math and science instruction: Utah is among the top five States in the 
numbers of students who take rigorous math courses.

    <bullet> Utah ranks third in Advanced Placement participation and 
success. The State has some International Baccalaureate programs in 
place and is expanding these programs to other high schools.
    <bullet> Still Utah has far too many students struggling through 
math, as early as the 4th grade. Therefore, the Utah State Board of 
Education has an initiative currently before the State legislature 
that, if funded, would provide intensive and personalized help to 
students who struggle in math in grades 4 through 6. This initiative 
would also require elementary math endorsement, with an emphasis in 
math content, for all teachers in grades 4 through 6.
    <bullet> Utah is continuing to emphasize greater achievement among 
minority populations at all ages and is pleased to note that data 
suggest these students are beginning to improve.

    Secretary Spellings, Utah leaders have informed me that they do not 
wish to see an increase in Federal coordination of math and science 
programs. Utah leaders continue to strongly urge that control of public 
education needs to remain in State hands. Utah leaders believe that 
education is best managed at the local levels.
    Overall, do you think the President's initiative allows for State 
control and flexibility? How do you envision that would be accomplished 
under the plan?
    Answer 1. Within the American Competitiveness Initiative (ACI), the 
States will continue to control the expectations for what students 
learn in mathematics, how such achievement is measured, and what 
interventions are taken to help those students who are struggling in 
mathematics. These decisions are made by and will remain with the 
States. The thrust of this initiative is to improve the quality of 
mathematics instruction by providing clear, research-based guidance to 
States and by inserting accountability into the many numerous 
mathematics and science programs funded throughout the Federal 
Government. To be clear, this initiative is designed to address a 
looming national concern--the fact that too few students are well 
prepared for college in a world where postsecondary education is 
essential to future jobs and a quality of life. I am pleased to hear 
that Utah has begun to address this concern by ensuring that elementary 
teachers have the necessary subject matter knowledge to teach 
mathematics to the highest levels possible. These Federal initiatives 
will complement that work.
    First, the work of the National Math Panel will help States answer 
the question about ``what works'' to help students learn math. These 
individuals will review the research to understand the critical 
components and principles of mathematics instruction, thus taking the 
guesswork out of instruction for teachers, principals, and other 
educators. Second, building on that analysis, States will have an 
opportunity to participate in two programs designed to improve the math 
knowledge of elementary and middle school students. In no case will the 
Federal Government prescribe a curriculum or direct a particular 
approach to teaching mathematics. Instead, this initiative will provide 
clear, research-based guidance to teachers about what works best in 
teaching mathematics and will also provide funding for initiatives 
designed around that information at both the elementary and middle 
school level.
    The ACI will also invest in two key activities that will help 
ensure many more students get access to high quality and rigorous 
mathematics, science, and foreign language instruction. The first will 
provide funds to State and local education agencies to increase the 
number of teachers who are qualified to teach the Advanced Placement 
and International Baccalaureate programs. The second sparks local 
innovation to find and place adjunct teachers who have experience and 
knowledge in critical areas such as mathematics, science, and foreign 
language instruction.

    Question 2. Secretary Spellings, I am very appreciative of your 
leadership over the last several months and am particularly grateful 
for the time you have personally devoted to Utah's concerns. As you are 
well aware, State leaders continue to ask for changes to the No Child 
Left Behind Act and have expressed reservations about expanding it to 
the high school level. As Secretary of Education, I believe it is your 
duty to regularly consult with State representatives in order to ensure 
that any national education plan honors the role of State leadership in 
public education.
    Please outline for me how you plan to expand NCLB to high schools 
and still preserve State leadership and control over education.
    Answer 2. I continue to listen to State and local leaders regarding 
the concerns, challenges, and successes they are experiencing as they 
educate students. This role, as you point out, is a fundamental one to 
my position as Secretary of Education, and a priority as I move into my 
second year as secretary. I meet regularly with local and State 
educators, business leaders, elected officials, and parents to 
understand how the Federal Government can work with States to encourage 
innovation and reduce the achievement gap. Here is some of what I am 
learning and hearing. Based on one recent study, more than three-
quarters of Americans believe that if our high schools don't change 
soon, our country will be less able to compete in the global 
marketplace. About 90 percent of the fastest-growing jobs of the future 
will require some postsecondary education. About three in ten 9th 
graders do not graduate on time, or that for black and Hispanic 
students the figure is about 5 in 10. We cannot ignore those facts but 
instead must find a way to improve the high school experience and work 
with States to do so.
    The high school initiative as proposed preserves State leadership 
in education while ensuring that the focus remains on improving rigor 
in high school, identifying where students are struggling, and helping 
them graduate from high school with a meaningful diploma. The 
President's High School Reform Initiative would hold high schools 
accountable for providing high-quality education to all students. And 
it would help educators implement strategies to meet the needs of at-
risk high school students. The proposed program would make formula 
grants to States to support:

    <bullet> The development, implementation and evaluation of targeted 
interventions designed to improve the academic performance of students 
most at risk of failing to meet State academic standards; and
    <bullet> Expanded high school assessments that would assist 
educators in increasing accountability and meeting the needs of at-risk 
students.

    This initiative has two main roles: a focus on students who are 
struggling in high school and a means of identifying which students are 
struggling with the addition of State assessments. Utah already 
assesses high school students in three high school grades, and in that 
respect, is a leader for the Nation. This is exactly where we hope the 
rest of the States will soon follow.

    Response to Questions of Senator Sessions by Secretary Spellings

    Question 1. Is the Alabama Math, Science and Technology Initiative 
one that other States should employ? How can you help achieve this?
    Answer 1. We are certainly pleased that Alabama is placing a focus 
on increasing student achievement in Math and Science. In general, the 
Department is supportive of programs that are proven to raise the 
quality of Math and Science education for our children. For other 
States, we believe they can achieve gains in student achievement 
through programs outlined in the American Competitiveness Initiative. 
The AP/IB Incentive program will help encourage our children to make 
greater strides in math and science, and the Math Now programs will 
ensure that children get the support they need along the way. We aim to 
help States increase student achievement by working together to 
implement these programs successfully.

    Question 2. I am concerned about the shortages that have arisen in 
the American workforce, particularly in the medical field. Because we 
don't have enough American doctors, we are forced to bring foreign 
doctors in, and many American students are attending foreign medical 
schools and then returning to practice medicine in the United States. 
This is especially true in rural areas. The problem is a complex one, 
including issues with medical school enrollment. There are not enough 
spaces in American medical schools to produce the number of doctors we 
need.

    a. There has been a 39 percent increase over the past decade in the 
number of U.S. citizens with foreign medical degrees seeking to 
participate in the National Resident Matching Program.
    b. 17 percent fewer of these students pass their Licensing Exam on 
the first try than citizens of other countries who attended medical 
school outside of the United States and their clinical training can be 
much less intense.
    c. International Medical Graduates make up 25 percent of practicing 
physicians in the United States.

    What do you think needs to change in order to both fully supply our 
need for physicians, and equip American students for the medical 
profession?
    Are you aware of the declaration of the Association of American 
Medical Colleges that we need to raise medical school capacity by 15 
percent, and that AAMC President Cohen states we need to expand medical 
school capacity by 30 percent?
    Answer 2. Throughout the 1980's and 1990's, it was generally 
believed that there would be an oversupply or surplus of medical 
professionals. More recently, this view has changed with the AMA 
expressing skepticism about the surplus of physicians, and the Council 
on Graduate Medical Education reversing its policy to promote 
restricting the supply of doctors. Its most recent study (January 2005) 
recommends training more doctors. To some extent, the shift in views 
has already begun to have an impact. The Association of American 
Medical Colleges, for example, has reported recent increases in U.S. 
medical school enrollment. First-time enrollees in medical school 
increased by 2.1 percent over the past year. Of the 125 allopathic 
schools, 22 expanded their class size by 5 percent or more and 7 of 
these 22 schools boosted first-year enrollment by more than 10 percent.
    The administration believes that we need to address at an early age 
and through postsecondary education the importance of innovation and 
scientific inquiry. The President has introduced the American 
Competitiveness Initiative (ACI), a multi-agency strategy focused on 
increasing our innovation and competitiveness in science and research.
    Maintaining our leadership in science begins with encouraging 
students to take more rigorous secondary school programs and to major 
in mathematics and science fields at the postsecondary level. As part 
of the ACI, the administration is implementing two need-based programs 
to address this issue. At the postsecondary level, the President 
proposes increasing aid to first- and second-year college students who 
complete a rigorous high school program ($750 for first-year students 
and $1,300 for second-year students) through Academic Competitiveness 
grants. National Science and Mathematics to Retain Talent (SMART) 
grants will provide an additional $4,000 to third- and fourth-year 
college students who major in math, science, and critical foreign 
languages. These two new grants will provide $4.5 billion in new 
funding for students over the next 5 years. We believe these 
initiatives, along with No Child Left Behind at the elementary and 
secondary levels, will better prepare students for entry into the 
medical professions.
    In the short run, one way to address the shortage is to ensure that 
restrictions are not placed on U.S. students' ability to enroll in 
foreign medical schools. The current requirements of the HEA impose 
safeguards that should be retained to ensure that those trained are 
adequately prepared to practice in the United States. Until capacity at 
our Nation's medical colleges has increased, we need to be careful not 
to impose new restrictions. This will allow students attending foreign 
institutions, as well as domestic medical colleges, to take full 
advantage of the Federal student loan programs in which loan limits for 
graduate and professional students will increase next year.
    What can we do to help fill this domestic need?
    We need to encourage students from an early age to pursue medicine. 
We can accomplish this goal by hiring more teachers to teach higher-
level science courses; offering a strong science curriculum with an 
emphasis on experiential learning in medicine; and recruiting persons 
from the medical community to mentor younger students. Once students 
are interested in the field, we need to offer financial incentives 
through our student aid programs that allow them to complete their 
studies and not incur overwhelming debt. Finally, we need to recruit 
more minorities and women to pursue medicine for a diverse physician 
pool. By having a long-range strategy that starts in elementary and 
extends through postsecondary education, we can increase the number of 
students interested in the medical field.

    Question 3. Reports show that male enrollment in higher education 
continues to decline. A recent article in the Weekly Standard \1\ 
points out that at colleges across the country this fall, 58 women will 
enroll as freshmen for every 42 men. There has been tremendous success 
in ensuring that girls take advantage of educational opportunities, but 
boys are clearly falling behind.
---------------------------------------------------------------------------
    \1\ The Weekly Standard, January 2-9, 2006; Where the Boys Aren't: 
The Gender Gap on College Campuses by Melana Zyla Vickers.
---------------------------------------------------------------------------
    a. Only a few fields like math, computers, engineering and the 
physical sciences continue to have more males than females, and the 
total number of graduates in these areas is stagnant or declining.
    Response a. That is correct, and that is why the President's 
American Competitiveness Initiative is so important. This is a 
nationwide initiative that will better prepare all elementary, middle, 
and high school students in math and science, regardless of gender, so 
that they will be able to compete in the workforce or in higher 
education.
    b. The number of bachelor's degrees is growing, while the number of 
engineering degrees is declining (in California between 1992 and 2002, 
the public university system experienced 11 percent more bachelor's 
degrees, but 8 percent less engineering bachelor's degrees).
    Response b. Through SMART grants, students obtaining science, 
technology, engineering, and mathematics degrees will be eligible for 
additional student aid. With more students being exposed and challenged 
with rigorous math and science coursework in elementary, middle, and 
high school, more interest in those subject areas will be eventually 
seen in higher education as well.
    c. American companies are now turning to foreigners because there 
aren't enough graduates in quantitative fields. A shocking 40 percent 
of all master's degrees awarded by American institutions in science, 
engineering, and information technology go to foreign students, as do 
45 percent of all Ph.D.s in those fields.\2\ Some have said that our 
reliance on foreign sources for math, science, and technology may be 
due to the lack of attention to boys in education.
---------------------------------------------------------------------------
    \2\ According to a study of the gender gap in education by the 
Business Roundtable in Washington, D.C.
---------------------------------------------------------------------------
    Response c. To ensure a strong and prosperous America in the 21st 
century, our students must possess the mathematics knowledge that is 
the foundation of our Nation's long dominance in science, technology, 
and innovation; graduate from high school prepared to enter college or 
the globally competitive workforce, and master critical foreign 
language needed both for success in the global business arena and to 
ensure our national security. The President's budget request addresses 
each of these challenges.
    What suggestions do you have on reaching males at a young age and 
ensuring that they realize their full potential? Do you have any plans 
in place to deal with this problem?
    Answer 3. While the Department does not specifically target males 
in its programs, many of our programs are focused on helping young 
people meet their educational goals. The High School Reform initiative 
will help ensure that the services of GEAR UP, Upward Bound, Talent 
Search, and Educational Opportunities Centers, of which approximately 
40-45 percent are males, are part of a broader effort to provide States 
and localities with the resources to address retention, access, and the 
transition to college for all students.
    Laura Bush's Helping America's Youth Initiative has been able to 
highlight at-risk youth, especially boys, by educating parents, 
communities, and schools.
    In addition to No Child Left Behind at the elementary level, the 
President's High School Reform initiative will help educators implement 
strategies designed to meet the needs of at-risk high school students 
and hold high schools accountable for providing high-quality education 
to their students. Interventions will be designed to increase the 
achievement of high school students, eliminate gaps in achievement 
between students from different ethnic and racial groups, and help 
ensure that students graduate with the education, skills, and knowledge 
necessary to succeed in postsecondary education and in a technology-
based, globally competitive economy. Specific interventions could 
include programs that combine rigorous academic courses with vocational 
and technical training, research-based dropout prevention programs, the 
use of technology-based assessment systems to closely monitor student 
progress, and programs that identify at-risk middle school students for 
assistance that will prepare them to succeed in high school and enter 
postsecondary education, including college preparation and awareness 
activities for students from low-income families.

    Question 4. The idea to attract professionals working in high-need 
fields into teaching is a great one, indeed. As a parent, I would love 
to know that my child was being taught science by a former engineer, or 
learning about math from a former accountant. I have been impressed 
with organizations such as Teach for America, which has trained 14,000 
individuals since 1990, and the American Board for Certification of 
Teacher Excellence, in which over 700 individuals have earned or are 
pursuing alternative teacher certification.
    a. There is, however, opposition and resistance to alternative 
teaching routes from those who assert that teaching can only be fully 
understood by going through a traditional education-degree program.
    b. How do you answer these challenges, and are there any particular 
organizations you have seen that show quality results in bringing 
professionals into the teaching field, equipping them to teach 
effectively, and providing continued support for those new teachers?
    c. What unique skills can professionals bring from their fields 
that you believe will benefit students?

    [Editor's Note: The response to this question was not available at 
time of print.]

           Questions of Senator Murray to Secretary Spellings

    Question 1. The President's budget again proposes school vouchers 
through the America's Opportunity Scholarships for Kids program. The 
President's education budget also eliminates 42 programs. We often hear 
that the programs are proposed for elimination because they are 
ineffective. However, there is no evidence that private school vouchers 
do anything to improve achievement for any students. Further, we still 
have yet to see any real evaluation of achievement under the DC voucher 
program.
    In such a tight budget, how does the Administration justify 
spending $100 million on a program that has yet to be found effective?

    Question 2. Secretary Spellings, you and I have previously 
discussed our mutual interest in improving our Nation's high schools 
and I hope we can continue that conversation. As you know, I have my 
own bill on high school reform called the Pathways For All Students to 
Succeed Act. My bill focuses on improving literacy and math skills, 
academic counseling including creating graduation plans with students 
and their families, accurate calculations and data collection on high 
school graduation rates, and funding to turn around low performing 
schools using best practices.
    The President's budget eliminates the Perkins program, GEAR UP, and 
part of the TRIO program and effectively creates a block grant and 
would require more testing at the high school level. You and the 
President have said that the idea would be to allow States to determine 
how to spend that block grant--if they determine career and technical 
education to be most needed to fund that, if it's GEAR UP, fund that. 
The problem with that theory is that all of these programs are needed 
along with new ways and investment to improve our high schools. 
Further, the overall funding for the high school initiative and the 
cuts to programs that go to high schools don't add up.
    Considering that the President is proposing a high school block 
grant to States, how does he think that will improve problems in high 
schools such as high dropout rates amongst poor and minority students 
or a lack of academic preparedness for postsecondary education?

    Question 3. One of my constituents, Bill Gates, is doing critical 
work with our Nation's high schools through the Gates Foundation. He 
speaks about our Nation's high schools as a question of morals and 
values and I couldn't agree more. The Federal role in education has 
traditionally been to ensure that disadvantaged students are receiving 
an equal education but it is exactly those students, poor and minority 
students, who are dropping out at the highest rates.
    What is the Department of Education doing at the high school level 
to target improving education for those students?

    Question 4. Only one-in-three 18 year olds is even minimally 
prepared for college and the picture is bleaker for poor and minority 
students. High school students--especially those most at risk of 
dropping out of school--need sound advice, strong support and an 
advocate to ensure they are getting all the support and services they 
need to take rigorous courses and have a plan in place for graduation 
and life after high school. Every student must have a clear graduation 
plan that assesses their needs and identifies coursework, additional 
learning opportunities and other supports to make their goals a 
reality. The President's budget includes $1.475 billion for high school 
reform highlights the use of individual performance plans for students 
entering high schools as a key strategy to ensure all students graduate 
with the skills necessary to succeed in postsecondary education or 
careers. My bill, the PASS Act, contains a similar proposal.
    Does the Department agree that this sort of individualized 
attention is critical to both preventing students from dropping out and 
succeeding through high school and beyond?

    Question 5. The fiscal year 2006 Budget Reconciliation bill created 
SMART grants. To receive the grants, students must have completed a 
rigorous secondary-school program of study.
    How do you anticipate judging what constitutes a rigorous 
secondary-school curriculum?

    [Editor's Note: The responses to Senator Murray's questions were 
not available at time of print.]


    [Whereupon, at 11:40 a.m., the committee was adjourned.]

                                    

</pre></body></html>
